<html>
<title> - PROCESS OF FEDERAL RECOGNITION OF INDIAN TRIBES</title>
<body><pre>[Senate Hearing 110-189]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-189
 
            PROCESS OF FEDERAL RECOGNITION OF INDIAN TRIBES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2007

                               __________

         Printed for the use of the Committee on Indian Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
38-917                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
                Sara G. Garland, Majority Staff Director
              David A. Mullon Jr. Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2007...............................     1
Statement of Senator Burr........................................    46
Statement of Senator Dorgan......................................     1
Statement of Senator Murkowski...................................     4
Statement of Senator Tester......................................     2

                               Witnesses

Dole, Hon. Elizabeth, U.S. Senator from North Carolina...........     3
Fleming, R. Lee, Director, Office of Federal Acknowledgement, 
  Office of the Assistant Secretary--Indian Affairs, U.S. 
  Department of the Interior.....................................    39
    Prepared statement...........................................    41
Goins, Hon. James Ernest, Chairman, Lumbee Tribe of North 
  Carolina.......................................................     6
    Prepared statement...........................................     8
Levin, Hon. Carl, U.S. Senator from Michigan.....................    12
    Prepared statement with attachment...........................    13
McIntyre, Hon. Mike, U.S. Representative from North Carolina.....     5
Sinclair, Hon. John, President, The Little Shell Tribe of 
  Chippewa Indians of Montana....................................    15
    Prepared statement...........................................    17
Tucker, Hon. Ann Denson, Chairwoman, Muscogee Nation of Florida..    24
    Prepared statement...........................................    26
Yob, Hon. Ron, Chairman, Grand River Bands of Ottawa Indians of 
  Michigan.......................................................    29
    Prepared statement with attachments..........................    31

                                Appendix

Chambers, Curtis, Tribal Chairman, Burt Lake Band of Ottawa and 
  Chippewa Indians, prepared statement...........................    54
Cook, Michael, Executive Director, United South and Eastern 
  Tribes, Inc., prepared statement...............................    57
Easley, Michael F., Governor, State of North Carolina, prepared 
  statement with attachments.....................................    58
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    53
Martinez, Hon. Mel, U.S. Senator from Florida, prepared statement    53
Rivera, Jr., Hon. Anthony, Chairman, Juaneno Band of Mission 
  Indians, Acjachemen Nation, prepared statement with attachment.    64
Skinaway, Monroe, Chairman, Sandy Lake Band of Ojibwe, prepared 
  statement with attachments.....................................    69
Venne, Carl E., Chairman, Crow Tribe, letter to Senators Baucus 
  and Tester.....................................................    68
Wright, James, Tribal Chief, Ma-Chis Lower Creek Indian Tribe of 
  Alabama, prepared statement....................................    63


            PROCESS OF FEDERAL RECOGNITION OF INDIAN TRIBES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2007

                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. The hearing will come to order.
    This hearing of the Committee on Indian Affairs is a 
hearing on the process of federal recognition of Indian tribes. 
This morning the Committee will meet to hear testimony 
regarding the administrative process for the Federal 
recognition of Indian Tribes. This is intended to be the first 
of several hearings on the Federal recognition process. My own 
feeling is that the process does not work very well at this 
point and needs to be repaired and fixed.
    Today we are going to focus on the experiences that 
petitioners have encountered in the administrative process that 
have led them to seek legislative recognition. We will also 
hear from the Department of the Interior, and I intend to hold 
a hearing at a later date that will focus on proposed 
recommendations for change and reform of the process.
    There were a number of tribal groups and organizations who 
wished to participate in today's hearings. The four witnesses 
here today represent tribal groups whose Senators have 
introduced recognition bills on their behalf. I should note 
there are others who wish to testify. We had a limited 
capability today. But I believe that the hearing today will 
have tribal groups and organizations who are representative of 
a broader group.
    The Federal acknowledgement process was established in 1978 
by the Department of the Interior at the request of the 
American Indian Policy Review Commission. It was not a process 
expressly required by statute, although there has been 
considerable Congressional interest in that process over the 
years. It was developed through consultation with Indian tribes 
and other interested parties.
    During the initial development of the regulations, there 
were over 400 meetings and discussions and conversations, I 
understand. That consultation resulted in what is an 
administrative process requiring petitioning groups to meet 
seven criteria to prove that they had a ``substantially 
continuous tribal existence since historical times.''
    The recognition process, for better or for worse, has 
evolved over the years into a lengthy--an unbelievably 
lengthy--and costly process requiring substantial research, 
substantial documentation. I'm told that some petitions can 
fill an entire room. It is unbelievable to me that two of our 
four witnesses today have waited nearly 30 years for the 
Department of the Interior to make a decision.
    I think it is important, if tribes are seeking recognition, 
that there be a complete and a substantial record. I understand 
the requirements that must go into making that record. So I'm 
not suggesting that we shortchange the requirement to establish 
the historical record. I am saying that a process that in many 
cases lasts 20 or 30 years for tribal recognition or for a 
decision on tribal recognition is a process that's broken and 
ought to be fixed. We're not serving anybody's interest with 
those kinds of lengthy, lengthy delays.
    So we will be holding the hearing this morning, we will 
hold other hearings as well on this process and recommendations 
for trying to fix this process.
    Let me call on my colleague, Senator Tester, from Montana, 
for comments.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. Just very briefly, 
I appreciate your kindness.
    As I look at this whole process, which I knew very little 
about before Chairman Sinclair approached me about a year ago. 
He asked me to carry a bill to legislatively recognize the 
Little Shell Tribe. It is absolutely apparent to me the process 
is totally broken and overburdened with bureaucratic red tape. 
A decision needs to be made in a lot of these areas on a timely 
basis yes or no and move forward. So if there's ways through 
this hearing, Mr. Chairman, if we can get the Department of 
Interior in a better position to make a timely decision on this 
particular topic so that the process serves our Native 
Americans better and creates better government.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    The Chairman. Senator Tester, thank you very much.
    As I indicated, the four witnesses today represent tribal 
groups whose Senators have introduced recognition bills on 
their behalf. There are two ways to be recognized as a tribe. 
One is recognition by the legislative authority and the second 
is going through the process at the Department of the Interior. 
When I talk about the process not working, I'm talking about 
that Department of the Interior process. It is not 
unprecedented that Congress has passed legislation in these 
areas. My preference would be that we have a process that works 
at the Department of the Interior, rather than the U.S. 
Congress taking up these bills and passing them on an 
individual basis. We are talking today about the process at the 
Department of the Interior.
    But we are joined today by Senator Dole and Congressman 
McIntyre. They have been involved in a legislative initiative 
on behalf of a tribal government, and they've asked if they 
could make a comment at the beginning of this hearing. We're 
pleased to have our colleague Senator Dole join us. Senator 
Dole, why don't you proceed?

               STATEMENT OF HON. ELIZABETH DOLE, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Dole. Thank you very much, Mr. Chairman, for 
holding this hearing and for giving me the opportunity this 
morning to introduce my friend, the Lumbee Tribal Chairman, 
Jimmy Goins. I've been proud to work with Chairman Goins over 
the years on our shared goal: full Federal recognition of the 
Lumbee Tribe.
    It's apparent that Chairman Goins is driven by his strong 
desire to serve his fellow Lumbee tribal members, his country, 
and his family. He was awarded the Purple Heart for his 
distinguished service and sacrifice in Vietnam. A man of faith, 
he teaches Sunday School and serves as a trustee, board member 
and steward at Union Chapel Holiness Methodist Church. And he 
is dedicated to his wife, Diane, three daughters and five 
grandchildren.
    Chairman Goins has long been a leader for the Lumbee Tribe 
in its quest for Federal recognition. As a member of the tribal 
council, he oversaw the Federal recognition committee and as 
the Chairman of the tribe, he has traveled across North 
Carolina and to Washington to educate policymakers on the 
importance of Federal recognition, not only for the Lumbee, but 
also the southeastern region of North Carolina where most of 
the tribe's 55,000 members reside. In fact, since my arrival in 
the Senate in 2003, this is the fourth hearing Chairman Goins 
has journeyed to Washington to attend.
    The Lumbee Recognition Act was the very first bill that I 
introduced in the U.S. Senate. I have continued to champion 
this cause alongside Chairman Goins and other Lumbee leaders 
and allies, because I passionately believe that Congress should 
act to provide the tribe full Federal recognition. It is a 
matter of fairness.
    North Carolina formally recognized the tribe in 1885, and 3 
years later, in 1888, the tribe began its quest for Federal 
recognition. In 1956, Congress finally passed legislation 
recognizing the tribe, but it included a terribly unfair 
caveat: the Lumbee were denied the benefits that every other 
federally recognized tribe receives. Moreover, the 1956 Lumbee 
Act actually prohibits the tribe from going through the Bureau 
of Indian Affairs process for full recognition. As the law now 
stands, the Lumbee Tribe can only be recognized by an act of 
Congress.
    Just one other tribe, the Tiwas of Texas, faced a similarly 
unfair situation following the passage of a comparable bill in 
1965. But in 1987, Congress enacted special legislation to 
recognize them. This makes the Lumbee the only tribe in the 
Country still trapped in this limbo.
    The BIA process is reserved for tribes whose legitimacy 
cannot be established. But the Lumbees' legitimacy has been 
established time and time again in studies by the U.S. 
Department of Interior beginning as early as 1912, then again 
in 1914, and yet again in 1933. Furthermore, the Government 
Accountability Office has documented that getting through the 
BIA is an arduous and lengthy process, as the Chairman has 
pointed out.
    I welcome the attention the Committee is giving this 
problem. However, it is clear that even if the Lumbee could 
legally go through the BIA, this would only impose yet another 
delay. Earlier this year, the Lumbee cleared a significant 
hurdle. The House passed the Lumbee recognition bill sponsored 
by Congressman Mike McIntyre, who's here with us this morning. 
It has been my joy to work with Mike over these many years.
    The Lumbee are now this close to securing the recognition 
for which they and their ancestors have tirelessly fought. The 
ball is in the Senate's court. Now is the time for us to do 
what is fair and right. In the last two Congresses, this 
Committee has approved my Lumbee Recognition Bill. I strongly 
urge again that this Committee report the bill to the full 
Senate. The Lumbee deserve better than a partial nod to their 
legitimacy. They deserve full recognition and the time is now.
    I thank you, Mr. Chairman.
    The Chairman. Senator Dole, thank you very much.
    I would like to recognize the Vice Chair, who has joined 
us, for an opening statement.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
     I am very pleased that we are holding this hearing on the 
Federal recognition process for Indian Tribes.
    We recognize that it has been 3 decades since the American 
Indian Policy Review Commission issued its final report 
regarding recommendations on the Federal Indian policy. Over 
the past 30 years Congress has made strides in developing a 
more progressive Indian policy and improving the government-to-
government relationship with Indian Tribes, but one area that 
has lagged is the Federal recognition process. Since 1978 the 
BIA office has reviewed and resolved some 62 petitions for 
Federal recognition, unfortunately this is only about 20 
percent of the 324 petitions that have been submitted for 
Federal recognition.
    Three of the four tribes that are testifying before the 
Committee today have been waiting at least 13 years for action 
to be taken on their Federal petitions. The good news for these 
tribes is that they've got the ability to go through the 
Federal recognition process. But as Senator Dole has mentioned 
this morning, for some, such as the Lumbee Tribe, the 
administrative recognition process is not available, thus 
forcing them to seek legislative recognition.
    I too would like to extend a warm welcome to the Lumbees 
this morning. The Native people of Alaska have long supported 
the Lumbees in their quest for Federal recognition. I was proud 
to support your legislation in the 109th Congress.
    One of the issues that I hope that we will review today is 
whether an examination of the staffing levels at the OFA and 
whether their budget is adequate for their large and complex 
workload. Another issue is whether the Federal recognition 
process itself, does it need to be changed, either by Congress 
or by the Secretary through rulemaking, to provide for 
deadlines and standardized criteria for the OFA to determine 
which tribal petitioners are appropriate for Federal 
recognition.
    I appreciate those witness that have traveled so far to be 
with us today. And with that, Mr. Chairman, I look forward to 
the testimony from those who will be here.
    The Chairman. Senator Murkowski, thank you very much.
    Congressman McIntyre, we're pleased that you've joined us.

               STATEMENT OF HON. MIKE McINTYRE, 
            U.S. REPRESENTATIVE FROM NORTH CAROLINA

    Mr. McIntyre. Thank you, Mr. Chairman. Thank you for 
holding this very important hearing on Federal recognition and 
the Federal process for Indian tribes.
    Mr. Chairman, fellow members of the Committee, I was born 
and raised in Robeson County, North Carolina, which is the 
primary home for the Lumbee Indians, in addition to several 
counties that adjoin it. I have the high honor to represent the 
Lumbees in the U.S. House of Representatives which, after a 
century of delay, recently passed a bill to grant the Lumbee 
Tribe Federal recognition by a bipartisan two-thirds margin in 
the U.S. House this summer.
    I am especially pleased today to welcome the Chairman, 
Jimmy Goins, who will shortly be testifying. Jimmy is a 
decorated Vietnam veteran, a successful businessman and an 
outstanding leader for the Tribe, as well as an outstanding 
citizen in our county and our State.
    As you will hear from Chairman Goins, there is no question 
the Lumbee Indians constitute an Indian tribe. In response to 
numerous bills introduced in the U.S. Congress over the last 
century, the U.S. Department of Interior has already studied 
the Tribe 11 times and has always concluded that the Lumbees 
are Indian.
    As you will hear from Chairman Goins, Congress itself--51 
years ago this summer--in fact, on the very day that the House 
remedied this situation in passing the recognition bill, 51 
years ago this past June, Congress put the Lumbee Tribe in 
Indian no-man's land with the enactment of the 1956 Lumbee Act, 
which according the 1989 Solicitor General's ruling, precludes 
the Tribe from going through the regular BIA process.
    There is exact legal precedent to remedy this situation. In 
two similar situations where Congress has precluded two other 
tribes from going through the BIA process, Congress passed 
special legislation correcting the problem by extending full 
Federal recognition to those tribes. Thus, the Lumbees are now 
the only tribe in America left in this legal limbo.
    Congress should now do the same with the Lumbees to go 
ahead and correct this inequity which Congress caused back 51 
years ago in 1956. The House indeed took action this summer to 
correct this injustice. It is our hope now that the Senate will 
do the same this session of Congress, so for once and for all, 
after 100 years, this matter can finally be resolved.
    Mr. Chairman, thank you for this opportunity to welcome Mr. 
Goins today and others who are here from the Lumbee Tribe. I 
look forward to continuing to work with you and with all of you 
on this Committee and our colleagues in the Senate to pass 
Lumbee Federal recognition that--after a century of delay--
recognition may finally proceed.
    Thank you, and may God bless you.
    The Chairman. Congressman McIntyre, thank you for venturing 
to this side of the Capitol once again. We appreciate having 
you. You and Senator Dole are certainly welcome to stay as long 
as you wish. We know that you have to leave at some point for 
other business.
    Let me call the first panel to the table, if I might. The 
Honorable Jimmy Goins, and Mr. Goins, you have had a pretty 
substantial introduction here by your Senator and Congressman. 
Tribal Chairman, Lumbee Tribe of North Carolina. You may take 
your seat.
    The Honorable John Sinclair, the Tribal President of the 
Little Shell Tribe of Chippewa Indians of Montana, Great Falls, 
Montana. The Honorable Ann D. Tucker, Tribal Chairperson, 
Muscogee Nation of Florida, in Bruce, Florida. And the 
Honorable Ron Yob, the Tribal Chairman of the Grand River Band 
of Ottawa Indians in Grand Rapids, Michigan.
    We welcome all of you. We will have Mr. Fleming with us as 
well. Mr. Fleming, would you proceed to take a seat at the 
table as well? We were going to do two panels, but because of 
the timing here, I hope you will all recognize we want to hear 
from all of you. My understanding is we have a vote beginning 
at about 10:30 today, so we may have a brief recess. But we'll 
proceed as well as we can.
    Mr. Goins, as I indicated, you've had a very substantial 
introduction. We appreciate your appearance before our 
Committee and appreciate your having served our Country in so 
many ways. Why don't you proceed? And then I will go down the 
row to Mr. Sinclair, Ms. Tucker and Mr. Yob.

STATEMENT OF HON. JAMES ERNEST GOINS, CHAIRMAN, LUMBEE TRIBE OF 
                         NORTH CAROLINA

    Mr. Goins. Thank you, Mr. Chairman and members and guests 
of the Committee. I appreciate the opportunity to appear today 
on behalf of the Lumbee Tribe of North Carolina.
    The Chairman. Let me interrupt you just to say that your 
entire statement will be part of the record--for all of you--
and we will ask that all of you summarize today. Thank you very 
much.
    Mr. Goins. Let me begin by extending the Tribe's gratitude 
to Senator Burr and Senator Dole for their support for the 
Tribe's cause. With their help, and of course that of 
Congressman McIntyre, whose bill to recognize the Tribe 
recently passed the House of Representatives, it is our fervent 
hope that our long quest for Federal recognition is about to 
come to an end with the enactment of Mr. McIntyre's bill into 
law.
    The Committee has asked out our experience with the BIA 
acknowledgement process. We have no experience with the present 
process. There's a simple reason why. The Lumbee Tribe is not 
eligible for the BIA present process. In 1956, the Congress 
enacted the Lumbee Act. This is one the nearly a dozen bills 
that had been introduced since 1899 to achieve Federal 
recognition for the Tribe. Congress amended it, though, at the 
request of the BIA. The BIA wanted to make sure that the Lumbee 
Tribe was not eligible for Federal services, so it asked 
Congress to add termination language to the bill. Congress did 
so, basically acknowledging us and terminating us at the same 
time.
    In 1989, the Solicitor's Office ruled that the 1956 Lumbee 
Act bars the Tribe from the present BIA process. By that time, 
the Tribe had already submitted a documented petition. But the 
BIA has not and cannot process it. Some have proposed that the 
answer for the Lumbees is to repeal the 1956 Lumbee Act and 
send the Tribe through the BIA process now. That is not the 
answer. It is not fair, it is not necessary and it will not 
work.
    Why is it not fair? Only a few other tribes have 
experienced anything like we did in the 1956 Lumbee Act. And in 
every such case, Congress has enacted special legislation to 
recognize the tribe. The Ysleta del Sur Pueblo is the best 
example. That tribe was subject to an unusual act like the 1956 
Lumbee Act that also left it ineligible for the BIA recognition 
process. Congress fixed this for the Ysleta del Sur Pueblo, or 
the Tiwas, by enacting special legislation in 1987. Congress 
should in all fairness do the same for the Lumbee Tribe, the 
only, the only tribe left in the Country in this position.
    Why is it not necessary to send the Lumbee Tribe through 
the BIA process? The whole purpose of the BIA process is to 
study a tribe's history and community, something that's already 
been done repeatedly at Lumbee. In response to all the Federal 
bills to recognize the Lumbee Tribe, the BIA testified to 
Congress about the Tribe's history and community and several 
times sent special Indian agents to Robeson County to study the 
Tribe. This produced numerous Congressional hearing reports and 
11 BIA studies on the Tribe. Every single one of these reports 
and studies concludes that we are an Indian community, one that 
descends from the coastal North Carolina tribes and one that 
has resided near the Lumber River, formerly known as Drowning 
Creek, since the time of white contact.
    Since Congress and the Department have already studied the 
Lumbee Tribe so many times and find a longstanding Indian 
community there, there is no reason yet for another study of 
the Lumbee. Why won't the administrative process work for the 
Lumbee? We have not gone through the present BIA process, but 
we've been dealing with the BIA and recognition since 1890. Our 
experience convinces us that the present BIA process just won't 
work for the Tribe. In 1934, the BIA specifically told Congress 
that the Lumbee Tribe descends from the historic Cheraw and 
related Siouan-speaking coastal North Carolina tribes. But now 
the head of the present BIA process says there may be 
insufficient documentation of the Tribe's descent from this 
historic Cheraw community.
    How can this be? Certainly the Lumbee Tribe's history has 
not changed since 1934, when the BIA was confident of the 
Tribe's Cheraw descent. This must be because of the limitation 
in the present BIA process. It depends completely upon 
documentary evidence by the Indian groups generated by the 
dominant society.
    Documentary evidence is sparse for many Indian groups at 
the time of early contact for very good reasons. For example, 
we Lumbees took refuge in the swamps of Drowning Creek to avoid 
non-Indian settlements. This protected us, but it also meant 
that very few documents about us were generated in the early 
contact period. Dr. Vine Deloria observed that the Lumbee Tribe 
is in a difficult position under the present regulations, 
because limited contacts produce limited documents. But Dr. 
Deloria had no doubt that the Lumbee Tribe is entitled to and 
should be recognized by Congress.
    The bottom line is that the BIA's recognition process has 
nothing to do with the Lumbee Tribe and should have nothing to 
do with the Lumbee Tribe. John Shepard, retired BIA employee, 
who wrote the acknowledgement regulations and set up the 
acknowledgement process, said it best recently in a letter to 
the Committee: ``The Government does not need to waste any more 
time or money for additional assurances of the Lumbee's 
background and credentials.'' There is enough research material 
on file now about the Lumbees for Congress to enact solid 
legislation, certainly with the knowledge that it has all been 
documented.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Goins follows:]

 Prepared Statement of Hon. James Ernest Goins, Chairman, Lumbee Tribe 
                           of North Carolina

    Mr. Chairman and members of the Committee. I appreciate the 
opportunity to appear before you today on behalf of the Lumbee Tribe. 
The Lumbee recognition issue is pending before this committee once 
again and our people have high hopes that this Congress, after nearly 
120 years of effort, we will finally achieve Federal recognition of the 
Lumbee Tribe of North Carolina. I bring with me the deepest gratitude 
of our people for the efforts of Senator Burr and Senator Dole on 
behalf of our people for their support for our cause. Of course, I also 
bring with me our people's joy at the passage of the Lumbee recognition 
bill in the House of Representatives, H.R. 65, on June 7 of this year 
by a two to one margin--all due to the hard work of Congressman 
McIntyre.
    The Committee has asked the Tribe to comment on the process of 
Federal recognition of Indian tribes. This is something with which the 
Lumbee Tribe has considerable experience: it has sought Federal 
recognition since 1888. Since that time, the Tribe has sought Federal 
recognition from the Department of the Interior through administrative 
processes and from Congress directly through the enactment of special 
recognition legislation. This experience is rooted deep in our history.
    Our experience has not yet resulted in Federal recognition for the 
Tribe. However, in 1956, Congress passed a peculiar statute dealing 
with the Lumbee Tribe--a statute that makes the Tribe ineligible for 
the administrative process for recognition of tribes. Some have 
proposed that the answer for the Lumbee Tribe is to repeal this act of 
Congress and send the Tribe to the current administrative recognition 
process. That is NOT the answer--this solution would be unfair, it is 
not necessary, and it will not work. The only fair solution is the 
enactment of special recognition legislation for the Tribe.
Federal Recognition--The Lumbee Experience
    The Lumbee Tribe first sought Federal recognition in 1888. That 
year, tribal leaders submitted to Congress a petition seeking Federal 
Indian education assistance for the Lumbee Indian Normal School that 
had been created by the State of North Carolina the previous year. The 
school was established to train Indian teachers for the all Lumbee 
school system that had been established in 1885, but the State provided 
too little funding for the normal school. The Congress referred the 
Tribe's petition to the Department of the Interior and the Commissioner 
of Indian Affairs told the Tribe:

        While I regret exceedingly that the provisions made by the 
        State of North Carolina seem to be entirely inadequate, I find 
        it quite impractical to render any assistance at this time. The 
        Government is responsible for the education of something like 
        36,000 Indian children and has provision for less than half 
        this number. So long as the immediate wards of the Government 
        are so insufficiently provided for, I do not see how I can 
        consistently render any assistance to the Croatans [as the 
        Tribe was then denominated under state law] or any other 
        civilized tribes.

    In other words, the Department acknowledged that we were an Indian 
community but denied assistance because of the cost of services.
    So the Tribe then turned directly to Congress. Between 1899 and 
1956, approximately a dozen bills were introduced in Congress to 
recognize the Tribe. The Department of the Interior testified on these 
bills and consistently acknowledged that we constituted an Indian 
community that has been on the Lumber River, formerly known as Drowning 
Creek, since the time of sustained white contact. Yet the Department 
consistently opposed recognition of the Tribe, usually on the grounds 
of cost.
    During this same period, the Department also undertook its own 
direct studies of the Lumbee Tribe and community, sometimes at the 
direction of Congress. Altogether, the Department produced 11 reports 
on the Lumbee Tribe between 1912 and 1956. The 1924 report prepared by 
James Henderson, Superintendent of the Cherokee agency in North 
Carolina, is representative. He found that, ``There are many to be 
found among them who to all appearances are full blood Indian.'' 
Henderson observed that the Lumbee were similar to other tribes and 
recommended that Lumbees be allowed to attend Haskell Institute, at a 
minimum. Once again, though, the Department testified against 
recognition of the Tribe.
    The Lumbee Tribe also sought to avail itself of other 
administrative processes. After the passage of the Indian 
Reorganization Act in 1934, Commissioner Collier wrote to the Tribe and 
suggested we might organize under that act if some of our members were 
certified as one-half or more Indian blood. The Tribe requested that 
the BIA send a physical anthropologist to the community, but only about 
200 members agreed to submit to the required physical examination. The 
BIA did certify 22 half-bloods out of those members it examined, but 
the BIA ultimately refused to take land into trust for these 
individuals so that they were not able to organize.
1956 Lumbee Act--Lumbee Tribe Ineligible for Administrative 
        Acknowledgment
    Congress finally enacted one of the many Lumbee bills in 1956 at 
the height of the Federal termination policy for Indians. Like the 
others before, the 1956 bill had been introduced as a recognition bill. 
The original bill tracked verbatim the language of the most recent 
state recognition legislation passed in 1953 that recognized the Tribe 
under the name Lumbee. However, the Department opposed enactment of the 
bill, once again because of its concern about providing Federal Indian 
services to the Tribe:

        We are therefore unable to recommend that the Congress take any 
        action which might ultimately result in the imposition of 
        additional obligations on the Federal Government or in placing 
        additional persons of Indian blood under the jurisdiction of 
        this Department. The persons who constitute this group of 
        Indians have been recognized and designated as Indians by the 
        State legislature. If they are not completely satisfied with 
        such recognition, they, as citizens of the State, may petition 
        the legislature to amend or otherwise to change that 
        recognition . . . If your committee should recommend the 
        enactment of the bill, it should be amended to indicate clearly 
        that it does not make these persons eligible for services 
        provided through the Bureau of Indian Affairs to other Indians.

    The Senate adopted the Department's recommendation and amended the 
bill to include classic termination language before enactment. Pub. L. 
570, Act of June 7, 1956, 70 Stat. 254.
    Since 1956, Federal agencies and courts have reached different 
conclusions regarding the purpose and effect of the 1956 Lumbee Act. In 
1970, the Joint Economic Committee of Congress described the Lumbees as 
having been officially recognized by the act, although not granted 
Federal services. See ``American Indians: Facts and Future,'' Toward 
Economic Development for Native American Communities, p. 34 (GPO 1970). 
Also in 1970, the Legislative Reference Service of the Library of 
Congress described the 1956 Lumbee Act as legislative recognition of an 
Indian people. See Memorandum, April 10, 1970, on Extending Federal 
Jurisdiction and Services to Hill 57 Indians, LRS, Library of Congress. 
And in 1979, the Comptroller General ruled that the 1956 act left the 
Lumbees' status unchanged, i.e., it neither recognized the Tribe nor 
terminated the Tribe's eligibility for services it might otherwise 
receive. The one court to construe the statute concluded that it was 
intended ``to designate this group of Indians as `Lumbee Indians' and 
recognize them as a specific group . . .'' but not to take away any 
rights conferred on individuals by previous legislation. Maynor v. 
Morton, 510 F.2d 1254, 1257-1258 (D.C. Cir. 1970) [holding that the so-
called half-bloods certified under the Indian Reorganization Act were 
eligible to receive BIA services]; see also September 28, 1988 CRS 
Memorandum, reprinted at S.Rep. No. 100-579, 100th Cong., 2d Sess.
    One thing is certain about the 1956 Lumbee Act--it makes the Lumbee 
Tribe ineligible for the administrative acknowledgment process. Under 
the acknowledgment regulations, the Secretary of the Interior cannot 
acknowledge tribes that are subject to legislation terminating or 
forbidding the Federal relationship. 25 C.F.R. sec. 83.3(e). In a 
formal opinion issued on October 23, 1989, the Solicitor for the 
Department of the Interior concluded that the 1956 Lumbee Act is such 
Federal legislation and, as a result, the Department is precluded from 
considering any application from the Lumbee Tribe for Federal 
acknowledgment.
Sending the Lumbee Tribe to the Administrative Recognition Process--
        Unprecedented and Unfair
    Congress has very seldom done what it did to the Lumbee Tribe in 
1956--i.e., acknowledge the tribe as Indian but simultaneously prohibit 
the application of Federal Indian statutes and services. And in no such 
case has Congress ever repealed the termination-type statute and then 
required the tribe to seek acknowledgment from the Department of the 
Interior. In every single other such case, the Congress has enacted 
special recognition legislation for the Tribe. It would be 
fundamentally unfair to treat the Lumbee Tribe any differently from any 
other tribe that Congress has placed in this peculiar position.
    The most directly analogous situation is that of the Ysleta del Sur 
Pueblo of Texas. Like the Lumbee Tribe, this tribe had been long 
recognized by Texas before Congress passed special legislation 
acknowledging them as Indian. This special statute, enacted in 1968 for 
the Tiwas of Texas (as Ysleta del Sur was then called) was modeled on 
the 1956 Lumbee Act. See S.Rep. No. 1070, 99th Cong. 2d Sess. The 
Department of the Interior concluded that the 1968 Tiwa Act made that 
tribe ineligible for the administrative process, the same determination 
it made regarding the 1956 Lumbee Act. And for that reason, Congress 
enacted special legislation to recognize the Ysleta del Sur Pueblo in 
1987. Pub. L. 100-89, Act of August 18, 1987, 101 Stat. 667.
    The Lumbee Tribe is the only tribe left in the country that was 
placed in this peculiar position by Congress. Congress should fix it 
the same way it has for every other tribe in this position. There is no 
fair or rationale basis for treating the Lumbee Tribe differently.
Sending the Lumbee Tribe to the Administrative Acknowledgment Process--
        Unnecessary
    There is no good purpose to be served by requiring that the Lumbee 
Tribe go through the current administrative process. That process gives 
the Department an opportunity to examine a group's history and 
community to determine whether the group is, in fact, an Indian tribe. 
The Department of the Interior and Congress have already made that 
inquiry regarding the Lumbee Tribe. As noted above, there are numerous 
congressional reports and 11 BIA studies on the Lumbee history and 
community. All of these reports consistently conclude that Lumbee is an 
Indian community that has been in the same place--on the Lumber River--
since the time of sustained white contact. Not a single congressional 
report or BIA study doubts these fundamental facts.
    Recently, the committee received a letter on this from John 
Shapard, a retired BIA employee who wrote the acknowledgment 
regulations, set up the acknowledgment office, and ran that office for 
its first 9 years. Mr. Shapard concludes that there is no need to send 
the Lumbee Tribe to the current administrative process for yet another 
study:

        It must be clearly understood that the Lumbees are not 
        ``Johnnies-come-lately.'' They have been actively seeking 
        recognition for more than one hundred years. They have been 
        studied by sociologists, anthropologists, and by historians. 
        Their personal and tribal lineage has been anatomized by 
        genealogists. Books have been written about the tribe and its 
        plight. Bureaucrats and legislators have wrestled with the 
        ``Lumbee problem'' since the 1890s. The Interior Department and 
        the bureau's files are packed full of reports, survey, studies, 
        and miscellaneous documents relating to the Lumbees. The State 
        of North Carolina, which recognizes the Lumbees as a tribe, is 
        equally cumbered with documents about the tribe. The government 
        does not need to waste more time or money for additional 
        assurances of the Lumbees' background and credentials.

    Letter of Johan A. Shapard to Chairman Dorgan, dated September 5, 
2007. Because of this record, no point is to be served by sending the 
Lumbee Tribe to the administrative acknowledgment process.
Sending the Tribe to the Administrative Acknowledgment Process--It Will 
        Not Work
    The administrative acknowledgment process is intended to verify the 
tribal status of Indian groups so that legitimate groups can be 
recognized. But the process depends completely upon documentary 
evidence generated by the dominant society to establish the seven 
mandatory criteria that define a tribe under those regulations. If a 
tribe fails to produce the necessary documents, the tribe is not 
recognized. Sometimes, though, documents are not available, even if the 
Indian group actually is an Indian tribe. There can be several reasons 
for this--suppression of Indian identity for periods of history due to 
particular state or Federal policies, or avoidance of record keepers by 
the Indian groups for reasons of self-protection or even survival. When 
this happens, the administrative acknowledgment process fails to 
identify or recognize all legitimate Indian tribes. The Lumbee Tribe 
may be such a tribe.
    As noted above, the BIA testified repeatedly to Congress over a 
fifty year period that the Lumbee are an Indian people. In 1934, the 
BIA witness, relying on a report by the eminent John Swanton, 
explicitly advised Congress that the Lumbee descend from the historic 
Cheraw and related Siouan speaking tribes from coastal North Carolina. 
But those who administer the current acknowledgment process have 
recently testified that there may be too few documents proving Cheraw 
descent for the Lumbee Tribe under the acknowledgment regulations. In 
other words, the BIA may now change its mind about the ancestry of the 
Lumbee Tribe only because the current regulations require rigid 
reliance on a mass of documents that may not have been generated about 
a group.
    Current scholars outside the BIA have noted this problem. Dr. Vine 
Deloria, for example, testified to Congress in 1988 in support of 
special legislation to recognize the Lumbee Tribe. He told Congress 
that the Lumbees may be in a difficult position on this issue under the 
regulations for a very good reason--in the early 18th century, the 
ancestors of the Lumbees took refuge in the swamps around Drowning 
Creek (now Lumber River) in order to minimize contact with nearby white 
settlements and protect themselves. Nonetheless, Dr. Deloria had no 
doubt that the Lumbees constitute an Indian tribe and urged Congress to 
recognize it as such.
    If the Lumbee Tribe descended from the Cheraw and related Siouan 
speaking tribes in 1934, it still descends from the Cheraw and related 
Siouan speaking tribes. The BIA said so then and it is still the truth 
of Lumbee history. The Congress should not tolerate picking and 
choosing of processes and results only for the purpose of avoiding 
recognition of the Lumbee Tribe. That is clearly the purpose of those 
who urge the Congress to ``protect the integrity of the administrative 
process'' by requiring the Lumbee Tribe to go to the BIA: it's really 
about opposition to Lumbee recognition, not about preserving any 
process.
Recommendation Regarding the Administrative Process
    The Lumbee Tribe has no direct experience with the current 
administrative process. Eighteen months after the Tribe submitted a 
petition for acknowledgment under the regulations, the Solicitor's 
Office concluded that the Tribe is precluded from that process because 
of the 1956 Lumbee Act. Soon thereafter, it became clear to us that the 
BIA was prepared to repudiate much of what it had said to Congress over 
the last fifty years about Lumbee history and ancestry. If the 
regulations require this, then the regulations cannot be relied upon to 
identify every legitimate tribe that should be recognized.
    But the Lumbee Tribe has a long and unhappy history with the BIA on 
the recognition issue before the current regulations were adopted. Our 
history teaches us one truth: the BIA has an institutional bias against 
non-federally recognized Indian tribes and should not be the agency 
charged with processing petitions for acknowledgment from such tribes. 
This is not intended as a criticism of any particular Administration or 
BIA employee. Rather, it simply reflects the mission of the BIA to 
serve and protect the interests of federally recognized Indian tribes. 
As the Commissioner of Indian Affairs put it to us in 1890, his first 
obligation was to provide services to those tribes already recognized. 
This being so, it is not fair to either the BIA or non-federally 
recognized tribes to expect the BIA to also pass on the status of other 
Indian groups. Based on this experience, we would urge the committee to 
consider transferring the tribal acknowledgment process to another 
agency or an independent commission, one without any ties or 
obligations to federally recognized tribes.
Conclusion
    Since the early days of the Republic, the Congress has been in the 
business of recognizing Indian tribes. If the Alaskan native villages 
(which were acknowledged in modern times by the Department of the 
Interior) are excluded, then the overwhelming majority of tribes 
recognized today achieved that status directly from Congress. Neither 
has Congress passed an act or expressed it judgment that it should 
never again directly recognize an Indian tribe. The question, then, is 
under what circumstances should Congress exercise its authority, not 
whether Congress should ever recognize an Indian tribe.
    If any tribe should appropriately be recognized by Congress, it is 
the Lumbee Tribe. The Lumbee Tribe is unique in all of Indian country--
it is the only tribe left in the kind of legal limbo imposed by the 
1956 Lumbee Act and it has surely been studied as often as any other 
tribe (and concluded to be an Indian community) by the BIA. There has 
been sufficient process. Instead of singling the Tribe out for unfair 
treatment unlike any other tribe, the Congress should simply recognize 
the Lumbee Tribe of North Carolina.

    The Chairman. Mr. Goins, thank you very much. Mr. Chairman, 
your remarks are, as always, on point, and we appreciate the 
contribution you've made.
    We are joined by Senator Levin, and I believe Senator Levin 
wishes to make a comment to introduce the witness from the 
State of Michigan. I will recognize Senator Levin to speak of 
the Chairman from Michigan, and then I will call on Senator 
Tester, who I will ask to introduce the next witness, who is 
Chairman Sinclair from Montana.
    Senator Levin, we knew that you were coming and I know you 
wish to make a comment about the witness from Michigan.

                 STATEMENT OF HON. CARL LEVIN, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Levin. Mr. Chairman, thank you and the Committee 
for allowing me to spend a couple of minutes introducing 
Chairman Yob of the particular group of Native Americans, the 
Grand River Bands of Ottawa Indians, who have spent such a long 
time awaiting Federal recognition. I just want to spend a few 
minutes to welcome him on behalf of the Committee.
    I want to thank the Committee for giving tribes an 
opportunity to share their experiences and their frustrations 
with the Federal recognition process. I hope that this hearing 
brings us closer to fixing a broken system.
    One of the tribes here today, the Grand River Bands of 
Ottawa Indians, is from my home State of Michigan. I am pleased 
to introduce its Chairman, Ron Yob, to the Committee. The Grand 
River Bands has been in some form indigenous to the State of 
Michigan for over 200 years. The Grand River Bands consist of 
the 19 Bands who occupy the territory along the Grand River in 
which is now Southwest Michigan, including the cities of Grand 
Rapids and Muskegon, Michigan.
    The members of the Grand River Bands are the descendants 
and political successors to signatories of the 1821 Treaty of 
Chicago and the 1836 Treaty of Washington. They are also one of 
the six tribes who are original signatories of the 1855 Treaty 
of Detroit.
    However, the Grand River Bands is the only one of those six 
tribes which is not recognized by the Federal Government and 
still cannot benefit from a number of Federal programs. Earlier 
this year, they lost millions of dollars when they were unable 
to take part in a Federal judgment fund because they were still 
waiting in this long, arduous Federal recognition process.
    The Grand River Bands first started their Federal 
recognition effort in 1994 and they have since been waiting for 
the Bureau of Indian Affairs at the Department of Interior to 
make a Federal recognition determination for 13 years. 
Currently, they are still waiting to be moved to active status. 
This is totally unacceptable, and unfortunately, it is not 
unusual for tribes caught in the Federal recognition process, 
as you will hear today from other tribes who have been waiting 
for far too many years for a determination.
    I hope that what we will learn from today's hearing will 
result in a more efficient and timely Federal recognition 
process. Again, I want to thank you and the Committee, Mr. 
Chairman, for allowing me to interject myself in this way in 
the middle of your hearing this morning. I want to thank you 
and the members of the Committee for all the good work that you 
do. And I particularly again want to welcome our constituent, 
Ron Yob, and to introduce him to the Committee.
    [The prepared statement of Senator Levin follows:]

   Prepared Statement of Hon. Carl Levin, U.S. Senator from Michigan
    Good Morning. I would like to thank the Chairman and the Indian 
Affairs Committee for giving me the opportunity to appear before you 
today.
    I would also like to thank the Committee for giving Indian Tribes 
the opportunity to voice their experiences with the Federal recognition 
process. I hope that this means we are one step closer to fixing this 
broken process.
    One of the tribes here today, the Grand River Bands of Ottawa 
Indians, is from my home state of Michigan.
    The Grand River Bands has been in some form indigenous to the State 
of Michigan for over 200 years. The Grand River Bands consists of the 
19 bands of Indians who occupied the territory along the Grand River in 
what is now southwest Michigan, including the cities of Grand Rapids 
and Muskegon. The members of the Grand River Bands are the descendants 
and political successors to signatories of the 1821 Treaty of Chicago 
and the 1836 Treaty of Washington. They are also one of six tribes who 
are original signatories of the 1855 Treaty of Detroit. However, the 
Grand River Bands is the only one of those six tribes which is not 
recognized by the Federal Government and still cannot benefit from a 
number of Federal programs. Earlier this year, they lost millions of 
dollars when they were unable to take part in a Federal judgment fund 
because they were still waiting in this long arduous Federal 
recognition process.
    The Grand River Bands first started their Federal recognition 
process in 1994 and have since been waiting for the Bureau of Indian 
Affairs at the Department of Interior to make a Federal recognition 
determination for 13 years. Currently, they are still waiting to be 
moved to ``Active'' status. This is unacceptable, and unfortunately, is 
not unusual for tribes caught in the Federal recognition process as you 
will hear today from other tribes who have also been waiting for far 
too many years for a determination. I hope that what we learn from 
today's hearing will translate into recommendations for a more 
efficient and timely Federal recognition process for the future.
Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Senator Levin, thank you very much. I know 
Chairman Yob will testify in a bit, but I know he appreciates 
your introduction.
    I know you have other business with the Armed Services 
Committee right now, so we appreciate your stopping in to give 
us that introduction.
    Let me recognize Senator Tester, who will introduce the 
next witnesses from the State of Montana.
    Senator Tester. Thank you, Mr. Chairman. Indeed, it is an 
honor for me to introduce the Honorable John Sinclair, 
President of the Little Shell Tribe of Chippewa Indians of 
Montana. John is following in the footsteps of his grandfather 
and father as President of the Little Shell Tribe.
    I have worked with John in the State legislature and it 
truly is a pleasure to work with him at this level. Our work at 
the State level was to pass resolutions in favor of recognition 
of the Little Shell Tribe. Those resolutions passed, if my 
memory serves me correct, by a resounding vote. There is good 
support within the State government.
    And just to dovetail on what folks have been saying around 
the table today, I think John feels a certain amount of 
frustration with being caught up in the process. And they have 
waited for a long time and they have done the work at their 
end. Hopefully, he will, and I am sure he will tell that story, 
and hopefully this Committee hearing will end up in some 
decisions being made by the Department of Interior. Because 
quite honestly, I don't mind a bit carrying the legislation 
through the Senate. But the fact is, it really shouldn't have 
to come to that.
    So I want to welcome John to Washington, D.C. and to this 
Committee, and we look forward to your comments, John.
    The Chairman. You may proceed, Mr. Sinclair.

 STATEMENT OF HON. JOHN SINCLAIR, PRESIDENT, THE LITTLE SHELL 
              TRIBE OF CHIPPEWA INDIANS OF MONTANA

    Mr. Sinclair. Thank you. Chairman Dorgan, Vice Chairman 
Murkowski and honorable members of the Senate Committee on 
Indian Affairs, I thank you for the opportunity to testify this 
morning.
    To my good friend, Jon Tester, I thank you for your 
tireless efforts on behalf of the Little Shell Tribe.
    My name is John Sinclair, and I am the President of the 
Little Shell Tribe of Chippewa Indians of Montana. Like my 
father and grandfather before me, I have had the honor the 
serve as President of the Little Shell. I am here today to 
share with you our experience with the Federal acknowledgement 
process, or FAP.
    We have a long history with the U.S. Government. My written 
testimony goes into more detail, but I want to note that my 
tribe, which is sometimes referred to as the Landless Indians, 
or Trash Can Indians, has been the subject of Federal 
legislation since the early 1900s. We sought recognition from 
the Federal Government for decades, filing a letter petitioning 
for Federal acknowledgement in April, 1978.
    This date, almost 30 years ago, represents more than a 
generation. Our efforts to achieve recognition through the BIAs 
administrative process predate the enactment of the Indian 
Gaming Regulatory Act, and in fact, predate the birth date of 
some of the people in this room. We have worked hard to play by 
the recognition rules, and up to this point have been 
successful. We have submitted tens of thousands of documents to 
the BIA. Each of these documents was submitted to satisfy the 
seven mandatory criteria. Because we are a very poor tribe, we 
have had to rely on pro bono help of others to amass these 
documents.
    In 2000, the Department of Interior proposed to acknowledge 
the Tribe. Interior found that we had satisfied each one of the 
criteria. So you might ask, why are we seeking Federal 
legislation when we are so far along in the process? The answer 
is simple: we don't trust the Federal Government to see that 
everyone else can see that we are now a tribe and have always 
been a tribe.
    Kevin Gover, the Assistant Secretary of Indian Affairs, who 
concluded that we satisfied BIA's criteria, said that Little 
Shell's was somewhat different from the previous 
acknowledgements. The difference was in the weight given to 
various types of evidence. He concluded that taken together, 
the evidence as a whole showed that Little Shell is a tribe. He 
acknowledged that more documentation could be helpful, but he 
said, ``To rigidly impose a mechanistic burden of proof on a 
people whose lack of formal organization is attributable to 
misguided Federal policy would be manifestly unjust and 
inconsistent with the regulations.'' In our case, I think this 
means that BIA should not be rigid in always requiring 
extensive documentation. Our history is that of a buffalo-
hunting society, and the Government's own policies worked 
against us.
    We weren't worried about keeping records when we were 
living in tar paper shacks and eating out of garbage piles. But 
this kind of mechanistic burden of proof is what we and many 
tribes have labored under. We have worked for years, submitted 
tens of thousands of pages of documentary evidence, received a 
proposed favorable finding, concluding that we had enough 
evidence to prove we are a tribe, submitted thousands more 
pages of reports and appendices, supported by boxes of 
documents. And still, the Office of Federal Acknowledgement is 
not done.
    Others already recognize us as a tribe. Our Congressional 
delegation supports our recognition. Montana State and local 
governments support us. The Turtle Mountain Band of Chippewa 
Indians in North Dakota and federally recognized tribes in 
Montana support us. We are the only non-federally recognized 
tribe that has been invited to sit on the Montana-Wyoming 
Tribal Leaders Council, and the Council of Large Land-Based 
Tribes.
    Shouldn't the fact that others recognize us as a tribe be 
persuasive? The administrative process is terribly burdensome 
and expensive, and it provides no guarantee of success. We know 
that in this Administration, there is at least one instance in 
which the BIA withdrew Federal recognition to a tribe even 
after it had issued formal final determination recognizing that 
tribe.
    In short, we are concerned that BIA has forgotten that 
different tribes have different kinds of histories. A cookie-
cutter approach to the seven mandatory criteria doesn't work. 
Those criteria often can't be met when historically, it was 
others, often hostile, who created and kept the documentary 
evidence of our existence.
    In 30 years, the Department of Interior has collected tens 
of thousands of documents. But it has not yet finally concluded 
that we are a tribe. We urge you to help us by enacting 
legislation that will force this paper chase to come to an end 
and bring justice to our people.
    In closing, you may think that a glacially slow process is 
a fair price to pay for the return to recognition. But with 
delay comes a terrible human cost. Let me share a story about 
those costs. You may have read this story in the press, and I'm 
sorry I have not shared it with you first. This story has many 
details that I would like to share with you, but because the 
time is short, let me just say this.
    There were three Little Shell children that were taken away 
from their mother. She was not healthy and could not provide 
for them. These three children were placed in a non-Native 
family, but that family was an unfit foster home. These 
children were badly abused, the foster mother made one little 
girl, two and a half year old Tamisa, put her hands in boiling 
hot squash. The two older girls were abused, both mentally and 
physically.
    This story had no happy ending. Tamisa, the two and a half 
year old baby, was beaten to death. She had injuries all over 
and inside her body. This happened to our people because we had 
no Federal support. We didn't have a Federal right to know 
where the children were and we had no tribal infrastructure to 
deal with such problems. We lost that baby and so many others 
because we could not provide for our people as a federally 
recognized tribe.
    Thank you for your time.
    [The prepared statement of Mr. Sinclair follows:]

 Prepared Statement of Hon. John Sinclair, President, The Little Shell 
                  Tribe of Chippewa Indians of Montana

    Chairman Dorgan, Vice Chairman Murkowski, and honorable members of 
the Senate Committee on Indian Affairs, I thank you for the opportunity 
to testify this morning. To our good friend and strong advocate Senator 
Jon Tester, I thank you for your tireless efforts on behalf of the 
Little Shell Tribe.
    My name is John Sinclair, and I am the President of the Little 
Shell Tribe. Following in the footsteps of my father and grandfather, I 
have had the honor to serve as President of my Tribe for the past 4 
years. I am here today to share with you our history with the Federal 
Government, our experience with the Federal Acknowledgment Process 
(FAP) and our request that this honorable body act to ensure Federal 
recognition for my people. The recognition for which we ask you today 
has been promised to us for more than seventy years. The following 1935 
letter from the Department of the Interior from which I quote below is 
just one piece of a large volume of documentation reflecting the 
Federal Government's long, but as of yet unsuccessful, efforts to 
provide official recognition and a land base for the Little Shell 
people:

        This [letter] acknowledges your letter of January 28, [1935] 
        written in behalf of landless Indians in northern Montana and 
        suggesting that a certain tract of land be set aside for their 
        use.

        This Office [the Lands Division for Indian Affairs] in general 
        and the commissioner [John Collier] in particular are 
        thoroughly cognizant of the unfortunate situation in which 
        these landless Indians find themselves. To no other groups of 
        Indians is so much constructive thought and persistent effort 
        being directed, for it is fully realized that theirs is the 
        greatest need.

        Also it is most heartening to read in your letter your 
        forthright assurance that, once lands are placed to your use, 
        you will be proud to make good.

        All government enterprises move slowly in spite of the best of 
        intentions, but it is hoped and believed that in the not too 
        distant future a satisfactory plan will be consummated for 
        landless Indians in general, including, of course, the group to 
        which you belong.

     Letter to Joseph H. Dussome from J.N. Stewart, Chief, Land 
Division, Indian Affairs, Department of the Interior (March 2, 1935) 
(emphasis added).

    Federal recognition for our Tribe enjoys long-standing broad, bi-
partisan support. Identical legislation to recognize the Little Shell 
Tribe has been introduced this Congress by Senators Tester and Baucus 
in the Senate (S. 724) and by Congressman Rehberg in the House (H.R. 
1301). Tribes in Montana and our cousins the Turtle Mountain Band of 
Chippewa Indians in North Dakota, have expressed their support of our 
Federal recognition.
    Governor Schweitzer and the Montana State Legislature, by Joint 
Resolution, have expressed their support for our Federal recognition. 
Hill, Cascade, Glacier and Blaine County as well as the city of Great 
Falls, the local governments most directly impacted by our recognition, 
have expressed their support of legislation to recognize the Little 
Shell Tribe. In fact, over the past year the State of Montana has 
provided us land from which we can provide essential governmental 
services--something the Federal Government had promised to do 
throughout the twentieth century but has yet to succeed in doing.
    The Department of the Interior has issued a proposed finding in 
favor of Federal recognition for our Tribe. Within the next year, we 
anticipate that the Department of the Interior could issue a final 
determination as to whether to recognize our Tribe. On the surface, it 
may seem odd that we would seek Federal legislation when we appear to 
be so far along in the administrative process. The answer is simple. 
First, as leader of the Little Shell Tribe, I cannot in good conscience 
let another day go by without doing everything in my power to secure 
recognition that has been wrongfully withheld. Every day that passes 
has real life consequences for my people, consequences that never make 
the headlines in Washington, D.C.--tribal members denied the most basic 
health care services, a tribal government without a federally secured 
land base or Federal funding to provide and maintain essential 
governmental services.
    Second, the Department has acted on our petition in a unique 
manner. The Department concluded in its proposed favorable finding that 
we are a Tribe, but it ``encouraged'' us to submit more documentation. 
Basically, the Department found that the available evidence supported 
its findings on each of the criteria, that no evidence was submitted in 
opposition to the particular finding, but that the Department would 
prefer to have additional records for certain time periods before the 
1930's. We took the Department's suggestions to heart, submitting 
approximately 1,000 pages of additional reports and appendices 
supported by several boxes of documentation.
    We are therefore in a situation where the Department essentially 
stated in 2000 that it believes we are a tribe but that without 
additional documentation it could walk away from its favorable finding. 
Concerned with its application of the regulations to our Tribe, the 
Department expressly invited comment on the consistency of the proposed 
finding with the existing regulations. To the best of our knowledge, 
not a single recognized tribe or state governmental entity commented on 
or objected to the Department's proposed favorable finding as 
inconsistent with the regulations. We now find ourselves in an 
uncertain situation where we fear that the Department may reverse its 
finding even though we have submitted thousands of pages of additional 
evidence and neither the State, its local governments nor other 
federally recognized tribes have submitted evidence to the contrary or 
objected to the Department's proposed favorable finding.
    Third, our legislation does more than simply confirm Federal 
recognition. It addresses many of the issues newly recognized tribes 
and local communities struggle with for decades after formal Federal 
recognition--the establishment of a land base, a tribal service area 
and certainty that our recognition will not be revoked. It is well 
documented that it takes years and sometimes more than a decade for the 
Department of the Interior to take land into trust for newly recognized 
tribes. For example, it took 8 years after the Jena Band of Choctaw 
Tribe was recognized before Interior took that Tribe's cemetery and 
governmental offices into trust. Some of this delay is due in part to 
the application of the National Environmental Policy Act to these 
acquisitions. Further, many tribes suffer from the years it takes for 
the Department to establish a service area for the newly recognized 
tribe. For example, after completion of administrative challenges to 
the Department's final determination acknowledging the Cowlitz Indian 
Tribe in 2002, the Cowlitz Tribe still does not have a BIA-designated 
service area. Thus, we know that even if Interior issues a decision 
within the year, the Tribe could be forced to endure many additional 
years in legal limbo as it struggles to establish a land base and 
service area.
    Although the State of Montana, the federally recognized tribes 
within Montana and local governments support our recognition, it is 
becoming increasingly common for parties to challenge the Department's 
acknowledgment decisions. And most recently, the Department reversed 
its decision to acknowledge a tribe because of such a challenge. While 
we do not expect a challenge from a governmental entity within the 
State of Montana, we cannot say with certainty that a decision by 
Interior to acknowledge our Tribe will not be challenged. Such 
challenges typically take years to resolve. Thus, we believe that 
legislation makes sense even if Interior is on track to issue a 
decision within a year. The legislation reflects the desires of the 
Tribe, the State and the local governments most directly impacted by 
our recognition. That is why we seek legislative recognition.
I. Our History With the Federal Government
    My Tribe, historically often referred to as the ``landless 
Indians,'' has been the subject of Federal legislation since the early 
1900's. The Little Shell Band is the successor in interest to the 
Pembina Band of Chippewa Indians in North Dakota. We were buffalo 
hunters who lived and hunted around the Red River and the Turtle 
Mountains in North Dakota in the early 1800's. The Pembina Band was 
recognized by the United States in an 1863 Treaty ratified by the 
Senate. This treaty gave the United States possession of the section of 
our lands near the Red River. After that treaty, while some members of 
the Pembina Band settled on reservations in Minnesota others followed 
the buffalo herds into western North Dakota and Montana, eventually 
settling in Montana and in the Turtle Mountains of North Dakota.
    In 1890, the United States authorized the creation of a commission 
to negotiate for a cession of land from the Turtle Mountain Chippewa 
and provide for their removal. Chief Little Shell and his followers 
walked out on the negotiations and refused to accept the terms of the 
eventual agreement. In the years that followed the 1892 Agreement, some 
of Little Shell's followers moved to Montana and joined with other 
members of the Pembina Band that had settled in Montana. After their 
traditional livelihood came to an end with the disappearance of the 
buffalo, Little Shell people were left to barely eke out an existence 
in a number of shantytowns across Montana, competing with both local 
reservation Indians and white settlers for resources. The Little Shell 
became known as the ``landless Indians'' of Montana. Like many American 
Indian people, we faced severe racism and discrimination throughout 
Montana, some of which continues today.
A. Congressional Efforts to Assist the Little Shell Band 1900-1920
    Congress began appropriating money to buy land for the landless 
Little Shell as early as 1914, when it set aside funds to be used for 
``support and civilization of Rocky Boy's Band of Chippewas, and other 
indigent and homeless Indians in the State of Montana[.]'' 38 Stat. L. 
582. Every year thereafter until 1925, Congress consistently 
appropriated funds for the Rocky Boy's Band and the ``homeless Indians 
in the State of Montana.'' Nearly simultaneously, in 1916, Congress 
enacted legislation establishing a ``reservation for Rocky Boy's Band 
of Chippewas and such other homeless Indians in the State of Montana as 
the Secretary of the Interior may see fit to locate thereon . . ..'' 
Shortly after the reservation was set aside, the Department established 
a tentative roll of the Indians of the reservation. The initial list 
consisted of 657 individuals. In preparing the final roll, Interior 
eliminated 206 applicants from the list. The Indian Inspector reported 
that he had ``given first consideration to the needs of the older and 
homeless Indians, without means of support.'' Department of the 
Interior, Proposed Finding for the Little Shell Tribe of Chippewa 
Indians of Montana, Technical Report (``Technical Report'') at 86. Shut 
out by the Department, Little Shell members were forced to subsist on 
vacant lands in north-central and north-western Montana.
B. The Little Shell Band's Repeated Pleas for Assistance: 1920-1934
    Newspaper articles of the 1920s chronicled the plight of our 
ancestors. Newspapers in the Great Falls area reported the City's 
failed attempts to remove ``the Indians who have been long encamped'' 
on the edge of town. Technical Report at 90. In December 1931, Little 
Shell Tribe/Homeless Indians leader Joseph Dussome explained to the 
Commissioner of Indian Affairs that the landless Indians of Montana 
lived on the ``dump piles of our Towns . . . going to the back allies, 
digging down the swill barrels for their daily bread.'' Mr. Dussome 
pleaded for help, stating ``that a great injustice has been done to my 
fellow Chippewa and Cree Indians of Northern Montana. Are we not 
entitled to a Reservation and allotments of land in our own Country, 
just the same as other Indians are[?]''
    Less than 2 weeks after receiving Dussome's plea for assistance, 
Interior responded that because we had refused to sign a Treaty and had 
removed from the land in North Dakota, we did not retain rights to land 
at Turtle Mountain:

        The Indians referred to are Chippewas of the Turtle Mountain 
        Band. They were under the leadership of Little Shell who became 
        dissatisfied with the treaties of the United States and the 
        Turtle Mountain Band of Chippewas. He accordingly refused to 
        accede thereto . . .. The disaffected band, by its failure to 
        accede to the terms of the treaty and remove to the reservation 
        is now unable to obtain any rights thereon for the reason that 
        the lands of this band are all disposed of, and the rolls 
        became final[.] . . . There is now no law which will authorize 
        the enrollment of any of those people with the Turtle Mountain 
        band for the purposes of permitting them to obtain either land 
        or money.

    The Little Shell Tribe thus remained homeless.
C. Interior's Efforts to Establish a Reservation and Reorganize our 
        People Under the Indian Reorganization Act
    Reflecting the significant shift in modern Federal Indian policy, 3 
years after Interior's rejection of Dussome's plea, Congress sought to 
remedy situations such as ours through the enactment of the Indian 
Reorganization Act (IRA) in 1934. We had continued our pursuit of a 
tribal land base by meeting with Interior Department officials shortly 
before the passage of the IRA. During one trip, tribal leader Dussome 
impressed upon the Commissioner of Indian Affairs the dire straits of 
our people. This trip, combined with passage of the IRA, triggered a 
flurry of activity by the Department to acquire lands for the Little 
Shell. Initially, Interior officials in Washington, D.C. pursued lands 
near the Ft. Belknap Reservation, stating:

        The Office [of Indian Affairs] referred to certain plans to 
        purchase tracts of land in Montana which could be set aside for 
        the use of the Chippewa Indians, special mention being made of 
        a project to acquire ``some 20,000 acres near the Fort Belknap 
        reservation.'' Plans for the use of this area do not in any 
        sense contemplate the mixing of the Chippewa Indians with those 
        now on the Fort Belknap reservation. The area under negotiation 
        is not part of the Fort Belknap reservation and justification 
        for its purchase is not based on the needs of the Fort Belknap 
        Indians. If it is purchased it will be available for the use of 
        the Chippewa Indians exclusively[.]

    Plans for settling the Little Shell Band on the parcel near Ft. 
Belknap were abandoned by the Department based on the belief that our 
ancestors were not willing to settle on that land.
    In the mid 1930s, the Department expended considerable effort to 
acquire land near the Rocky Boy's Reservation for our people. Assistant 
Commissioner Zimmerman explained that the land could be established as 
a new reservation for the landless Indians or added to the Rocky Boy's 
Reservation. Although original estimates suggested that the acquisition 
would be sufficient for approximately 100 families, the Department 
ultimately concluded that the purchased land could only accommodate 25 
families.
    The conclusion that the parcel near the Rocky Boy's Reservation was 
insufficient to meet existing needs did not deter the Department from 
its efforts to find land for the Little Shell. Interior officials 
underscored the Department's determination to secure a land base for 
our people, explaining:

        The landless Indians whom we are proposing to enroll and settle 
        on newly purchased land belong to this same stock, and their 
        history in recent years is but a continuation of the history of 
        wandering and starvation which formerly the Rocky Boy's band 
        had endured.

        Out of the land purchase funds authorized by the Indian 
        Reorganization Act, we are now purchasing about 34,000 acres 
        for the settlement of these Indians and also to provide 
        irrigated hay land for the Indians now enrolled on Rocky Boy's 
        Reservation. The new land, if devoted wholly to that purpose, 
        would take care of only a fraction of the homeless Indians, but 
        it is our intention to continue this program through the years 
        until something like adequate subsistence is provided for those 
        who cannot provide for themselves.  . . . The fact of these 
        people being Indian and being entitled to the benefits intended 
        by Congress has not been questioned.

    The Department realized that although ``it would be highly 
desirable to secure a single area or reservation which would meet the 
needs of all the Chippewa Indians of Montana . . . this seems to be 
impossible at this time . . . [and] the Indians must adjust their plans 
to take advantage of the best that we can secure for them.'' Reflecting 
this sentiment, during this time period, the Bureau of Indian Affairs 
acquired a 42-acre tract of land near Great Falls, Montana. The land 
was acquired for the benefit of landless Indians located in the 
vicinity of Great Falls. Although Little Shell members were ready to 
move to the parcel, Interior explained that ``[l]ocal public opinion 
forced the abandonment of the project. Local residents of the vicinity 
did not wish the Indians as their neighbors.'' In 1950, Congress 
enacted legislation providing for the sale of those lands. P.L. 714, 
81st Congress, 2d Session, August 18, 1950.
D. The Roe Cloud Roll--The Department of the Interior Prepares an 
        Indian Roll to Facilitate Organization Under the IRA
    In addition to its efforts to secure a reservation near the Rocky 
Boy's Reservation, Interior took steps to prepare a detailed census of 
our people who were one-half or more Indian blood. In December 1935, 
the Commissioner of Indian Affairs submitted a proposed form of 
enrollment under the IRA. The Commissioner explained that the form was 
modeled upon a number of other tribal enrollment forms. In his 
memorandum seeking approval, the Commissioner emphasized the plight of 
the Little Shell people, stating:

        It is very important that the enrollment of homeless Indians in 
        the State of Montana be instituted immediately, and it is 
        proposed to use this form in the determination of Indians who 
        are entitled to the benefits of the Indian Reorganization Act.

    This enrollment process resulted in the Roe Cloud Roll, named after 
Dr. Henry Roe Cloud, an Interior official who played a large part in 
the enrollment project. Leaders of the Little Shell Tribe provided 
invaluable assistance to the enrollment project. As one Indian Affairs 
official explained, Joseph Dussome's ``services were indispensable in 
identifying the Indians and in advising us where to locate them.''
    Our current members are generally the descendents of Indians who 
were either on the Roe Cloud Roll or immediate kin to someone on the 
roll. The Roe Cloud Roll is important for a number of reasons, 
including that it is a Federal document certifying our ancestors as 
being one-half or more Indian blood and it reflects the efforts and 
intentions of the Department to provide for the reorganization of our 
Tribe. These efforts were taken to reverse the destructive Federal 
policies of previous decades.
E. State and Federal Efforts to Secure Federal Recognition for Our 
        People: 1940-1950
    As Interior moved forward on the enrollment project, its progress 
in acquiring lands for the Little Shell slowed largely because of the 
lack of Federal appropriations to acquire land. In other words, had 
appropriations been sufficient to acquire land, it appears that both 
the Department and the State of Montana strongly supported 
establishment of a reservation for our people. Had a reservation been 
established, we would be recognized today.
    Records from this time period provide ample evidence that the lack 
of appropriations prevented our recognition. For example:

  <bullet> Assistant Commissioner Zimmerman explained to Senator Murray 
        in 1940, ``[t]he Indian Office is keenly aware of the pressing 
        need of the landless Chippewa Cree Indians of Montana. The 
        problem thus far has been dealt with only in a very small way. 
        I sincerely hope that additional funds will be provided for 
        future purchases in order that the larger problem remaining can 
        be dealt with in a more adequate manner.'' May 13, 1940 Letter 
        from Assistant Commissioner Zimmerman to Senator James E. 
        Murray.

  <bullet> In 1941, the Montana State Senate and House highlighted our 
        plight of ``living in makeshift dwellings on the outskirts of 
        our various Montana Cities'' and sent a Joint Memorial to the 
        U.S. Congress urging the Congress ``to immediately enact 
        appropriate legislation to create an Indian Reservation for all 
        Montana landless Indians.''

  <bullet> In response to the local Superintendent's request for funds 
        so that tribal leader Dussome could travel to Washington to 
        advocate for the purchase of land, Commissioner John Collier 
        (largely credited as the architect of the IRA) explained:

             [Our] Office, as you know, has been sympathetic toward the 
        desires of these people to secure land upon which they could 
        settle and build homes. Unfortunately appropriations have not 
        been sufficient to permit us to do much in the way of 
        rehabilitating this group upon newly acquired lands. Various 
        Members of the Congressional delegation from Montana have been 
        interested in the condition of these people . . .  [l]ittle can 
        be accomplished by the Indian Office until funds have been made 
        available by Congress for their rehabilitation[.]

  <bullet> That same year, Assistant Commissioner Zimmerman underscored 
        the Department's dilemma--that it desperately wanted to assist 
        our people but that it could not do so because of a lack of 
        appropriations.

             We have on several occasions studied this problem and can 
        see no way in which any solution can be arrived at without 
        specific, adequate appropriations. There are more than 500 
        families in the State without resources of any kind, who have 
        no equity in any reservation, and who constitute a serious 
        social problem. Essential to any scheme of self-support for 
        them is an adequate land base. . . . To provide necessary land 
        for this number of families would require a million dollars, in 
        addition to some lands now part of the public domain. Another 
        million would be required for loans and grants for cattle 
        purchases, machinery, homes, and farm buildings. . . . 

             We are ready to undertake this task if the Congress is 
        willing to provide the necessary funds. . . . The project is 
        perfectly feasible; the Indians undoubtedly are in great need; 
        they deserve some effort on the part of the Federal Government. 
        We shall be happy to cooperate in any way.

  <bullet> Responding to a petition requesting that a nearby ranch be 
        purchased for our benefit, the Office of Indian Affairs 
        explained their predicament to Joseph Dussome:

             As mentioned in prior correspondence there are no funds 
        available with which to enter into a land purchase program for 
        the benefit of the landless Indians of Montana. We fully 
        appreciate the land needs of these Indians, and it is our 
        desire to aid them at the first opportunity. As stated before, 
        such action will be dependent upon the availability of funds. . 
        . . As previously intimated, a large sum will be necessary to 
        take care of the land needs of the group in which you are 
        interested, and until such time as Congress appropriates the 
        necessary funds for this purpose, we will be able to do very 
        little.

  <bullet> In 1949, the Department reiterated its desire to assist my 
        people and its inability to establish a land base because of 
        the lack of appropriations. In a letter to Representative Mike 
        Mansfield, Acting Commissioner William Zimmerman explained:

             Receipt is acknowledged of your letter of February 1, 
        enclosing one from Hon. John W. Bonner, Governor of Montana, 
        concerning the landless Indians of Montana with particular 
        reference to their destitution and need for rehabilitation.

             Our files contain considerable correspondence concerning 
        the needs of these Indians and suggested plans for their 
        rehabilitation, but due to lack of funds this office has been 
        unable to do very much to relieve the situation. . . . Before 
        anything can be done for the relief of these Indians, it will 
        be necessary for Congress to appropriate adequate funds for 
        that purpose.

    In 1940, a tribal representative of the Little Shell Tribe 
perfectly summarized the quandary of the Tribe, stating:

        [Assistant Commissioner] Zimmerman . . . told us that we 
        couldn't have any allocation or organization or corporate 
        charter under this act until we have land. He said ``we haven't 
        got money to buy land and appropriations have been drastically 
        cut from year to year and there is nothing we can do.'' Summing 
        up our negotiations with the Interior Department we come to 
        this conclusion: First, we are entitled to rights as an Indian 
        but as to forming an organization, borrowing from the revolving 
        loan, we must first have a charter. We can't get a charter 
        unless we have land. We can't have land because the Indian 
        Office is broke . . . 

    Because adequate funds were never appropriated to acquire land for 
my people, the Tribe continued to struggle over the decades that 
followed to satisfy the basic needs of our members. As you know, in the 
late 1970s the Department of the Interior formulated an administrative 
process. Because we are in the final stages of that process, I do not 
feel it is in the best interest of my Tribe to criticize the process or 
the Department. I will, however, provide a few general observations 
regarding our petition for acknowledgment.
II. Our Experience With the Administrative Process
    We originally filed a letter petitioning for Federal acknowledgment 
on April 28, 1978, almost 6 months before Interior's administrative 
process for acknowledgment was created. The process has proved to be 
extremely resource intensive. I believe that the lack of available 
resources greatly hinders both the tribes in the process and the 
Department.
    Over the past 29 years, we have been fortunate to receive the 
services of the Native American Rights Fund. Without their assistance, 
it's unfathomable that we could have found the funds necessary to 
retain legal counsel and consultants for this extended period of time. 
Over the past 15 years, NARF has spent over 3,400 attorney hours on our 
administrative petition. Consultants and graduate students put in 
thousands and thousands of additional hours. Tribal consultants, such 
as historians, genealogists and graduate students, donated substantial 
amounts of time pro bono or worked at substantially reduced rates in 
compiling large portions of the petition. Even with this generosity, 
however, the total cost for consultants and associated expenses over 
the last fifteen years exceeds $1 million dollars. Literally tens-of-
thousands of documents have been provided with regard to our petition.
    The lengthy process also inflicts an immeasurable human cost, 
wherein the acknowledgement torch is passed from one generation to 
another. The task of securing professionals to assist us with our 
petition and the collection of documents from repositories across the 
United States, Canada and England is itself demanding, but it pales in 
comparison to the demands of providing for my people without the 
protection of Federal recognition, without a land base. And our current 
status impacts the prospects for our future generations. Moreover, it 
is heartbreaking to consider the idea that after nearly 30 years in the 
administrative process, in the politically charged atmosphere of 
Washington, D.C., the Department could reverse its proposed favorable 
finding and decide not confer Federal acknowledgment.
    Our tribal status is well documented. Interior's proposed finding 
documents include a 234 page technical report that provides evidence to 
satisfy each of Interior's mandatory criteria. Interior expressly 
concluded that each of the mandatory criteria were satisfied, 
requesting the Tribe to search for additional evidence to supplement 
the evidence that already exists. We have submitted additional 
documentation, as requested by the Department. Notably, we have 
provided additional documentation to demonstrate that 94.4 percent of 
our members descend from a historic tribe. In all, we estimate that we 
have submitted thousands of pages of additional documentation for our 
petition.
    One criterion that the Congress may wish to consider for 
modification is criterion (a)--since 1900, identification of a Tribe by 
external sources. Although we clearly satisfy this factor (as the 
Department concluded in its proposed finding), we submit that it is 
nonsensical that a petitioner could satisfy all of the other criteria, 
thus demonstrating that it is a Tribe, and yet potentially fail to be 
recognized simply because a non-Indian never documented the Tribe in 
the early 1900s or that documentation no longer exists.
III. This Honorable Body Should Act to Recognize the Little Shell Tribe
    I respectfully implore this honorable Committee to act favorably on 
the legislation introduced by Senators Tester and Baucus to confirm our 
Federal recognition. I submit that this Congress should complete the 
efforts of previous Congresses to secure to us a fraction of the Indian 
lands lost by our people over time. Congress undertook this honorable 
effort in the 1910s and 1920s, appropriating money for the purchase of 
land for our ancestors but, as Interior officials acknowledged, it was 
woefully inadequate to meet our desperate needs. In the 1930s and 
1940s, the Department of the Interior made substantial efforts to 
enroll our ancestors and acquire land for us, but Congress never 
appropriated the funds necessary to secure a land base for us. This 
Congress has an opportunity to finish what it started by acting on our 
pending legislation. Legislation that will cost the public very little, 
but will be a giant first step in putting our Tribe on an equal footing 
with our sister Tribes.
    From time to time, representatives in this honorable institution 
have rightly questioned Congress' ability to determine whether a 
particular group constitutes an Indian tribe. I submit that this 
Congress has a more than ample record on which to enact this 
legislation. In addition to the tens of thousands of records held by 
the Department in connection with our Petition, the Congress has a long 
legislative record of acting for our benefit. Congress also has a 
history of enacting similar legislation. In recent history, Congress 
enacted such legislation for tribes like the Little Traverse Bay Band 
and the Little River Band--Tribes for whom Department attempted to 
recognize in the 1930s but because of the lack of appropriations 
recognition was never completed. And unlike other tribes acknowledged 
by Federal legislation, here the Congress can rely upon the Department 
of the Interior's proposed favorable finding to recognize our Tribe.
    Our strong historical record is reinforced by the fact that our 
recognition is not politically controversial in the State of Montana. 
Our Congressional delegation supports this legislation. Montana's State 
and local governments support our recognition. And in addition to the 
Turtle Mountain Band of Chippewa Indians, every federally recognized 
Tribe in the State of Montana supports our recognition. Indeed, we are 
the only non-federally recognized tribe included in two significant 
inter-tribal organizations--the Montana-Wyoming Tribal Leaders Council 
and the Council of Large Land Based Tribes. Area tribes recognize our 
legitimacy. Indeed, we know of no opposition to this legislation by any 
recognized governmental entity within the State.
    As I've previously mentioned, Senator Tester and Baucus' 
legislation resolves more issues than our recognition. The legislation 
also addresses issues that often present significant challenges to 
tribes and local communities after a tribe is recognized through the 
acknowledgment process. This legislation provides certainty to all 
interested parties regarding land acquisition and establishes a service 
area in which the Tribal members can immediately begin to receive long 
over-due Federal services. And finally, the bill provides the certainty 
of Federal acknowledgment. While we fully expect to the Department to 
affirm it favorable finding--particularly since to the best of our 
knowledge no party has submitted a single historical record that would 
undermine Interior's previous finding--such certainty is understandably 
important. For almost 100 years we have relied on the Federal 
Government's promises to take the steps necessary recognize our 
government and secure a home for our people. We often get so very close 
and then something goes awry. This legislation is your opportunity to 
ensure that previous mistakes are not repeated.
    Every day that passes has concrete impacts on the Tribe. For 
example, even though we are eligible for Indian Health Care services, 
for several years now over 1,200 Little Shell members have been taken 
off of the Indian Health Service rolls because they were not on the 
original roll the Little Shell Tribe presented to the Bureau of Indian 
Affairs in 1989. Many of these members were not even born at the time 
of the original roll or are not on the rolls because of clerical 
oversight. Federal recognition would alleviate this situation and 
ensure that all of our tribal members receive necessary health 
services.
IV. Conclusion
    I greatly appreciate the opportunity to provide this Committee with 
an overview of our history, our experience with the Federal 
Acknowledgement Process, and why this honorable Committee should 
favorably report S. 724 out of Committee. I am happy to answer any 
questions from the Committee.

    The Chairman. Chairman Sinclair, thank you very much for 
your testimony. I understand the passion and the emotion and I 
very much appreciate your being here today on behalf of your 
tribe.
    Next we will hear from Chairperson Ann Tucker, from the 
Muscogee Nation of Florida in Bruce, Florida. Chairperson 
Tucker, thank you for being here.

   STATEMENT OF HON. ANN DENSON TUCKER, CHAIRWOMAN, MUSCOGEE 
                       NATION OF FLORIDA

    Ms. Tucker. Chairman Dorgan, Vice Chairwoman Murkowski, 
members of the Committee, I am Chairwoman Ann Denson Tucker of 
the Muscogee Nation of Florida. I am honored to represent my 
tribal government and my people on the subject of Federal 
recognition.
    As Petitioner Number 32 in the Office of Federal 
Acknowledgment, we now have the dubious distinction of being 
one of the three oldest petitioners. We have seen many things. 
This year marks 60 years since the longest serving community 
leader, my great grandfather, wrote to the BIA and explained 
that our people should share in land claim settlements under 
the Treaty of Fort Jackson. The BIA's written response: well, 
you are mistaken, you cannot possibly be who you say you are, 
because the members of that tribe are either dead or removed.
    Ten years later, the BIA admitted they were wrong. But it 
took until 1971 to receive a notice of settlement. By then, my 
great-grandfather had been dead for 2 years. Telling you this 
today is important, because in 1852, State law made it illegal 
to be an Indian living freely in the State of Florida. So the 
settlement letter was our mechanism to confirm our racial 
identification in a place where Jim Crow laws had forced us to 
become either white or black. Indian wasn't allowed where we 
lived. And I guess today that would be called ethnic cleansing.
    We continued with a petition submitted in the mid to late 
1970s. That was returned because the rules had been restated. 
And we started again.
    But in our case, this Federal recognition is not only about 
self-determination. It is about our very survival as a 
community of Indian people. My tribe has the same desperate 
needs that it had 30 years ago. Little has changed in this 
respect. But the urban sprawl of the Gulf of Mexico coastline 
has pushed newcomers into the rural interior, and that 
seriously threatens our community's integrity. It has come at 
us from all sides, and we are running out of time.
    We cannot afford property taxes that come with coastal 
subdivisions. It is a way of life that we have never had to be 
a part of. So in our world, we worry about where are we 
supposed to remove to this time, when we are priced out of our 
home land and still waiting for an answer from the OFA.
    Time, a lack of money, new precedents, urban sprawl, 
inaction when this process first needed fixing, these are our 
enemies. It is our understanding that you want to know why our 
tribe came to this Committee with legislation. We are here 
because no American, particularly the first Americans, should 
have to wait across generations to be recognized. We are a poor 
community. We have no more resources to battle the OFA. There 
are no grants that pay for recognition. There is no 
grandfathering in. Old tribes must follow current regulations 
without regard to what the regulations were when we started.
    There is little to no staff assistance, no written 
communication. Our universe becomes 100 years of 10 year 
increments, scanned and digitized, sorted 4 ways and subject to 
interpretation by people who have never left their office to 
understand the nature of our community. For them, our world is 
a paper trail put together by highly educated and expensive 
professionals. But that is not our world. We have buried two 
generations of people waiting for self-determination. I would 
like to not have to bury the last survivors of the third 
generation. They are in their 80s.
    So I am here. I have traveled from Bruce, Florida to tell 
you that we are a 150 year old community of this Country's 
indigenous people and we are still waiting for justice. Our 
quality of life matters. The preservation of our culture and 
our tradition matters. Righting a 150 year old wrong matters, 
and it matters now. It doesn't matter 10 years from now when a 
limping agency can maybe make a decision that may or may not be 
just and may or may not be reversed.
    We are here because we are an Indian government. We are a 
people who have managed to survive Andrew Jackson as a 
territorial Governor. We have survived Indian removal and 
genocide, the Civil War, the Jim Crow laws, and a battle to 
prove that we were not eradicated, we still exist. These things 
we have faced and survived for 150 years as an Indian 
community. But if we cannot get resolutions to problems 
inherent in the OFA process, we honestly do not believe that 
our tribal population will survive Federal recognition.
    From the age of four, when I remember my first council 
meeting, it was taught to me that Congress is where tribal 
governments go to seek relief for their people. It is as you 
said, Chairman Dorgan, you can delegate authority, but you 
cannot delegate responsibility. On behalf of the tribal 
government and the people of the Muscogee Nation of Florida, 
thank you for allowing our voice to be heard today.
    [The prepared statement of Ms. Tucker follows:]

  Prepared Statement of Hon. Ann Denson Tucker, Chairwoman, Muscogee 
                           Nation of Florida

I. Introduction
    Chairman Dorgan, honorable Committee Members, my name is Ann Denson 
Tucker. I am Chairwoman of the Muscogee Nation of Florida, the Florida 
Tribe of Eastern Creek Indians. I am honored to be here representing my 
Tribe and my people to testify about my Tribe's experience with the 
Federal recognition process.
    My Tribe needs and deserves Federal recognition, and we appreciate 
this Committee's interest in reviewing the flaws in the Bureau of 
Indian Affair's (BIA) current recognition procedures.
    My Tribe is not just another victim of the recognition 
bureaucracy--Petitioner Number 32 in the Office of Federal 
Acknowledgement--we are also the second oldest. We have been trapped in 
the BIA recognition system since the mid-70s. After filing multiple 
Petitions and surviving a number of rule changes over 25 years, we were 
finally classified as ``Ready, Waiting for Active Consideration.'' That 
was 4 years ago. We are still on the list, without any indication of 
when the BIA will act on our Petition. All told, we have been trapped 
in BIA's bureaucracy for over 30 years and we have nothing but expense 
and frustration to show for it.
    My Tribe has exhausted its resources. It can no longer pursue or 
respond to the BIA's failed process--a process that requires applicants 
to re-do and re-file papers and studies and to comply with rules, 
regulations, and interpretations that did not exist when our initial 
application was made--a process whose pace can be characterized, at 
best, as glacial or, perhaps, as no pace at all. My Tribe has worked, 
waited, struggled, and sacrificed in this process for over 30 years. At 
every turn, we have learned that the BIA tribal recognition process is 
enormously burdensome, confusing and unfair. The recognition process 
represents a clear failure of the Federal Government's trust 
responsibility to Indian Tribes and should be addressed by Congress.
II. Background on the Muscogee Nation of Florida
    The Muscogee Nation of Florida, also known as the Florida Tribe of 
Eastern Creek Indians, is a Tribe of Creek Indian people whose home is 
centered in Bruce, in Walton County, Florida. Our ancestors were one of 
the Tribes that made up the Historic Creek Confederacy, and were 
signatories to the 11 treaties with the United States between 1790 and 
1833 that led to the Creeks forced removal from their traditional 
homelands. In response to attempts to remove our community, our 
ancestral tribal leaders left their Indian enclave in Daleville, 
Alabama and followed the Choctawhatchee River south to Bruce Creek, 
where they re-established our community, traditions and homes. Since 
that time--150 years ago--my Tribe has lived, fished, hunted, farmed 
cooperatively, raised cattle, and practiced our traditional ceremonies 
on this land as a community and as a distinct cultural, social and 
political unit.
    By the time we migrated from Daleville to Bruce, Jim Crow laws had 
been enacted in Florida. By 1850 it was illegal to trade with Indians. 
And in 1852, it became illegal--under penalty of death--for Indians to 
be ``Indian,'' unless the Indian was confined to a Reservation. Under 
the general outlawing of Indians, people could be white or ``colored,'' 
but could not be openly Indian. Because my Tribe had no formal 
reservation, the Jim Crow laws made it nearly impossible for us to 
openly embrace our cultural heritage and community. We survived until 
the Jim Crow laws were repealed only by cooperatively maintaining our 
communal anonymity. Allow me to repeat this, for nearly 100 years our 
Tribe was forced to hide its government, traditional ceremonies, and 
culture. As a result, under the best of circumstances, satisfying BIA's 
tribal recognition requirements became difficult. The fact that BIA 
continuously changes its tribal recognition requirements, and ignores 
the impact of the Jim Crow laws, has made the task almost impossible.
    Most of my Tribe's members continue to live in and around Bruce, 
just as our ancestors did after migrating from Alabama. We have lived 
together, worked together, married one another, and buried one another 
as a community. We have our own rules and we have our own leaders. We 
have kept our ways and our ceremonies. We even built our own school in 
which our people teach our children about our traditions.
III. The Muscogee Nation of Florida's Experience with the Recognition 
        Process
    My Tribe's experience with BIA's recognition process is not unique. 
Let me tell you our story.
    It has been 60 years since our community leader--my great 
grandfather--wrote to the BIA and explained that our people deserved 
compensation for lands taken under the Treaty of Ft. Jackson. BIA's 
response, which is on file in the Federal Archives, was dismissive, 
declaring curtly, ``You are mistaken. You cannot possibly be who you 
say you are because the members of that Tribe are either dead or 
removed. . .'' Fast forward 10 years to 1957 (the same year the 
Seminole Tribe of Florida was granted Federal recognition), when the 
BIA finally acknowledged that it had not rid the Southeast of the 
Florida Tribe of Eastern Creek Indians; the same year the Seminole 
Tribe of Florida was granted Federal recognition. Fast forward again 14 
years, to 1971, when BIA finally verified our racial identification to 
the U.S. Government and, in turn, to the State of Florida. By then, my 
great grandfather had been dead for 2 years, and we had already spent 
24 years getting the BIA to acknowledge our existence as Indians. Now, 
36 years later, I am here to tell you that our Indian community and 
tribal government are still waiting for the BIA to acknowledge that we 
are a Tribe, and, with no end to the regulatory process in sight, we 
need Congress to intervene. \1\
---------------------------------------------------------------------------
    \1\ The following is a brief summary of my Tribe's efforts to 
achieve recognition through the administrative process:
      <bullet>  1978--The Tribe submits an initial petition for 
recognition. The petition is returned later that year purportedly 
because of changes to BIA regulations.
      <bullet>  1978-1995--The Tribe prepared three separate petitions 
for recognition. The first two petitions were not submitted because of 
continuing changes to agency regulations and policies. The third was 
submitted to BIA in June, 1995.
      <bullet>  1996--The Tribe received a ``Technical Assistance'' 
letter from BIA requiring additional research and document preparation. 
The Tribe submitted its response in 2002.
      <bullet>  2003--The Tribe was placed on the ``Ready, Waiting for 
Active Consideration'' list. At the same time, the Tribe was notified 
that because of additional changes to agency regulations the Tribe 
needed to electronically submit in excess of 840,000 pages of 
documents.
---------------------------------------------------------------------------
    Because we are one of the oldest Tribes still seeking Federal 
recognition, having sought recognition before there even was a formal 
process, and because we have ridden the tail of the regulatory tiger as 
it has run haphazardly through change after change, we can offer the 
following specific examples of some of the problems that have crippled 
the BIA tribal recognition process:
    The lack of an accountable standard of interpretation--Staff 
members' interpretations are inconsistent; and when inconsistencies 
arise, staff is not accountable. \2\ Additionally, in making its 
findings and final determinations, BIA does not apply the standards set 
forth in BIA's own regulations, electing, instead to cite to standards 
for review and have been developed by academics. Rather than observing 
the intent and letter of applicable Federal regulations, BIA's process 
has become an ad hoc jumble of regulatory interpretation in which 
Federal regulations are ignored. \3\
---------------------------------------------------------------------------
    \2\ The Acknowledgment Precedent Manual offered as a guide has a 
qualifying statement that its contents do not serve to constraint the 
staff or any decisions made.
    \3\ Final Determinations and other formal findings from OFA cite 
historical, anthropological and genealogical standards. The only 
standards of these type are academic communities, not the regulations.

  <bullet> Undue influence by ``parties of interest'' before a factual 
        determination is made. OFA no longer defers comments by parties 
        opposing acknowledgment petitions until OFA has made its 
        factual determination based on the evidence submitted by the 
        Tribe. Protesters now are free to oppose petitions and wage 
        public relations campaigns even before BIA has fully considered 
        the Tribe's petition. These activities make it impossible for 
---------------------------------------------------------------------------
        the process to be a fair, factually-based evaluation.

  <bullet> OFA's unwillingness to provide documentation that it 
        possesses. The sheer magnitude of the BIA's requirements 
        regarding the format, size and amount of documentation are not 
        justifiable and cause the cost of preparing a filing a petition 
        for acknowledgment prohibitive. To make matters worse, if 
        evidence of conditions precedent to recognition is not 
        available to the tribal petitioner but is in OFA's possession, 
        OFA will reject a Tribe's petition for lack of evidence rather 
        than supplementing the Tribe's petition with evidence OFA has 
        in its files. \4\

    Please allow me to identify one final, overarching problem that has 
impacted us dramatically: the ever shifting goal line.
    In 1978, when my Tribe filed its first petition for acknowledgment, 
Tribes were not required to do multiple filings. However my Tribe has 
been required to continually file new papers to address changes in 
BIA's regulations, changes in BIA's ``internal operating procedures'' 
of the BIA and changes in BIA's own interpretations of evidence in 
support of our petition that we previously submitted to it.
    My Tribe has expended untold human and financial resources trying 
to satisfy the BIA. We have been forced by the process to retain 
attorneys, historians, genealogists, archaeologists and other experts 
to satisfy the BIA's requirements ad new legal precedents. And we have 
done it all over again when the BIA's requirements changed. After each 
attempt we have been met with new demands and no substantive action. 
After more than 30 years of trying to satisfy changing BIA demands of 
our initial Petition approaches, it is clear that the BIA's process is 
patently defective and terminally inefficient.
IV. The Importance of Fair and Efficient Federal Recognition 
        Regulations
    The BIA's rules and procedures cause it to withhold recognition 
from Tribes who have made proper application for, and who are entitled 
to, recognition. The BIA's intransigence threatens the survival of 
Tribes and the well-being of Tribal members. I understand that this 
hearing is not being held to hear my Tribe's argument for Federal 
recognition. However, understanding the importance of Federal 
recognition makes it easier to see that my Tribe's frustrations with 
BIA are neither unique nor inconsequential.
    Federal recognition acknowledges the significance of tribal 
governments and the U.S. government's responsibility to Tribes. It also 
opens opportunities to Tribes under various Federal programs reserved 
for federally recognized Tribes, facilitates economic development and 
enables Tribes to qualify for Federal funding. As Congress has stated:

        ``Recognized'' is more than a simple adjective; it is a legal 
        term of art. It means that the government acknowledges as a 
        matter of law that a particular Native American group is a 
        Tribe by conferring specific legal status on that group . . . 
        This Federal recognition is no minor step. A formal political 
        act, it permanently establishes a government-to-government 
        relationship between the United States and the recognized Tribe 
        as a ``domestic dependent nation,'' and imposes on the 
        government a fiduciary trust relationship to the Tribe and its 
        members. Concomitantly, it institutionalizes the Tribe's quasi-
        sovereign status, along with all the powers accompanying that 
        status such as the power to tax, and to establish a separate 
        judiciary. Finally, it imposes on the Secretary of the Interior 
        specific obligations to provide a panoply of benefits and 
        services to the Tribe and its members. In other words, 
        unequivocal Federal recognition of tribal status is 
        prerequisite to receiving the services provided by the BIA and 
        establishes tribal status for all Federal purposes. \4\
---------------------------------------------------------------------------
    \4\ H.R. Rep. 103-7811 103d Cong., 2nd Sess. (1994) at 2; 1994 
U.S.C.C.A.N. 3768, 3769.

    The Department of the Interior's website boasts that ``[t]he scope 
of Indian Affairs programs is extensive and includes a range of 
services comparable to the programs of state and local government, 
e.g., education, social services, law enforcement, courts, real estate 
services, agriculture and range management, and resource protection.'' 
\5\ None of these services and benefits is available to my Tribe so 
long as it is trapped in the BIA's recognition process.
---------------------------------------------------------------------------
    \5\ Available at: http://www.doi.gov/benefits.html
---------------------------------------------------------------------------
    The importance of Federal recognition cannot be overstated. Tribes 
have endured forced relocation, aggressive and open government 
discrimination, and years of neglect by government bureaucrats. In 
spite of these trials, Tribes have worked, and continue to work 
diligently to address pressing economic, education, and resource 
issues. We should be able to avail ourselves of programs intended to 
support our efforts. We should not be thwarted by the ineptitude and 
further neglect of the BIA.
V. Conclusion
    Congress must take action to reform the tribal recognition process. 
Put simply, it is unreasonable for the BIA to have a regulatory review 
process that takes decades to complete, requires Tribes to pay 
exorbitant sums for attorneys, historians, genealogists, archaeologists 
and other experts and relies on a body of regulations that constantly 
change, making compliance nearly impossible.
    Applicants should not be made to wait decades for fair BIA action. 
Federal recognition is not only about self-determination. It is about 
our very survival as a community of Indian people. My Tribe has the 
same desperate needs that it had 35 years ago: housing, health care, 
education, elderly services and emergency management. These needs--
critical to the survival of our Tribe's members--have been compounded 
by the passage of time and the BIA's neglect.
    As each year passes my Tribe struggles to care for its members 
needs as it becomes more and more difficult to imagine when we will 
receive the Federal recognition to which we are entitled. The tribal 
leaders who began the recognition process in their youth are now tribal 
elders. Our elders, like my mother, deserve to be recognized before 
they pass leaving the burden of engaging the BIA bureaucracy to the 
next tribal generation.
    I appreciate the invitation to speak to you today on behalf of the 
Muscogee Nation of Florida. My Tribe hopes that Congress will take 
action to ensure that Federal recognition process is reformed and 
streamlined in ways that produce timely, fair, and predictable 
responses to petitions for recognition.
    Thank you.

    The Chairman. Chairperson Tucker, thank you very much for 
coming to Washington and offering that testimony. We appreciate 
it.
    And Chairman Yob, you have been properly introduced as well 
by our colleague, Senator Levin. So you may proceed with your 
testimony. Your formal testimony will be part of the permanent 
record.

   STATEMENT OF HON. RON YOB, CHAIRMAN, GRAND RIVER BANDS OF 
                   OTTAWA INDIANS OF MICHIGAN

    Mr. Yob. Good morning, Mr. Chairman and members of the 
Committee. My name is Ron Yob and I am Chairman of the Grand 
River Bands of Ottawa Indians of Michigan. With me this morning 
is Fran Compo, Vice Chairman of the Tribe.
    I am honored to appear before the Committee this morning to 
talk about why tribes such as Grand River are seeking 
legislation to resolve their Federal status. The short answer 
is that the process at the Bureau of Indian Affairs is too 
slow, too expensive and too cumbersome for all groups in the 
Federal acknowledgement process.
    Quite simply, I would not be here today except that the BIA 
failed to meet a statutory deadline for considering our 
petition. Congress set the deadline by law in 1997. 
Unfortunately in that law, Congress did not include any 
provisions for making the BIA accountable for failing to meet 
the deadline. And there is no penalty against the BIA for not 
doing their job. It is only the Grand River Bands that suffers.
    We are lucky to live in the same places that our ancestors 
lived and those are the very same ancestors who signed treaties 
in 1821, 1836 and 1855, ceding vast amounts of territory to the 
United States. Last year we were proud to bring home the 
original 1855 Treaty of Detroit to the Gerald Ford Museum in 
Grand Rapids where the signing was exactly 150 years ago. I 
happen to have a great, great, great, great-grandfather that 
signed that treaty.
    We are a treaty tribe, and our members trace from ancestors 
who signed those treaties. In 1997, Congress enacted the 
Michigan Indian Lands Claims Settlement Act to provide for 
distribution of Ottawa and Chippewa judgment awards for payment 
of lost lands. The Grand River Bands of Ottawa Indians was 
eligible to receive funds if the tribe submitted its full 
petition by December, 2000. The BIA had to complete action on 
the petition before the deadline for distribution of the funds 
to individuals, which was March 2007.
    Unfortunately, while the Grand River met the legal date for 
filing its petition, the BIA failed to act on our petition by 
the deadline set in the bill. Our own members voluntarily did 
the very technical work of verifying the memberships through 
authenticated birth, death, baptism and marriage records. We 
provided a full response to the BIA in May 2006 and were placed 
on the ready for active list 9 months later. This was 4 months 
before the BIA actually paid out the judgment funds to 
individual members in June 2007.
    This payment, while welcomed by many of our members, means 
that the Tribe will not receive either the statutory 20 percent 
of judgment funds or the bonus money for newly recognized 
tribes authorized by the 1997 Act while $3 million will revert 
to the U.S. Treasury. Senators Levin and Stabenow introduced 
legislation in the 109th Congress to require a timely review of 
our petition by the BIA. This Committee held a hearing in June 
2006 and the members seemed very sympathetic to our plight. 
However, the Committee did not report the bill to the Senate 
for action.
    Again, early in this 110th Congress, Senators Levin and 
Stabenow re-introduced the legislation, and we are grateful to 
them for their unfailing support. However, while the time has 
now passed for the Tribe to receive the judgment funds, we feel 
strongly that the BIA should be held accountable to act on our 
behalf. Congress should require the BIA to review our petition 
on an expedited basis.
    There is no mistake: we are a tribe by any objective 
measure and should be federally recognized. We were never 
terminated and we have been mentioned in several statutes 
enacted by Congress in the past 50 years. We are recognized by 
the State of Michigan and by other recognized tribes in our 
State. Our ancestors signed three treaties with the United 
States. Our reservation lands were taken from us. The only 
positive here is that the Tribe has survived with its culture, 
language and tribal traditions intact. We are in grave danger 
now of losing our Tribe if we are forced to wait another 15, 20 
or 25 years for the BIA to act on our petition.
    The first petitioner on the ready for active list was 
placed there 11 years ago, and we are number 10 on that list. 
Our children do not have the health and education benefits that 
their cousins now enjoy. Our inland hunting and fishing rights 
in the State of U.S. v. Michigan are being negotiated by others 
as we speak because the Tribe cannot be at the table. Our 
jurisdiction over our children under the Indian Child Welfare 
Act could be eroded and our ability to provide for re-burial of 
our ancestors' remains under NPCRA is also in danger.
    There is enormous pressure on our members to enroll in 
other tribes where benefits are available to them. The BIA is 
slow in the process and inherently biased against recognition. 
It is also very, very expensive. We believe the bias should be 
the other way around. It should be in favor of recognition 
unless there is strong evidence that the petitioning group is 
not a tribe.
    Again, I want to thank the Committee members for your 
interest in helping Indian tribes who purely by accident of 
history are not now part of the Federal family of Indian 
tribes. We are ready to help in any way possible to make 
recognition a reality for all legitimate Indian groups.
    Megwich.
    [The prepared statement of Mr. Yob follows:]

  Prepared Statement of Hon. Ron Yob, Chairman, Grand River Bands of 
                       Ottawa Indians of Michigan

    Chairman Dorgan, Vice Chairman Murkowski and members of the Senate 
Indian Affairs Committee, it is an honor to be asked to testify this 
morning on behalf of the Grand River Bands of Ottawa Indians on the 
very important topic of how Indian tribes are granted recognition by 
the United States.
    Overview: There are three ways Tribes are granted recognition: by 
Congress, by the Administration or by a Federal court. In recent years, 
Congress has been reluctant to enact bills to grant tribes recognition 
status though numerous tribes were recognized by statute before the 
advent of gaming. Since the beginning of this Administration in January 
2001, the Secretary of the Interior has recognized two groups as 
Federal tribes but has denied recognition to ten tribes. Recent Court 
cases are few, but some have resulted in negotiated settlements that 
deal with timing of review of petitions by the Administration.
    The Federal acknowledgment process (FAP) is governed by regulations 
found at 25 C.F.R. 83 that were first published in 1978. It is 
important to note that Congress has never weighed in on either the 
criteria outlined in the regulations, or on the process used by the 
Bureau of Indian Affairs (BIA) to implement those regulations. There is 
no clear statutory underpinning for the regulations administered by the 
Office of Federal Acknowledgment (OFA) at the BIA, the office that 
processes petitions from Indian groups to determine whether or not they 
meet the seven criteria in the regulations.
    The Grand River Bands of Ottawa Indians Story: The Grand River 
Bands of Ottawa Indians is petitioner #146 in the Federal 
acknowledgment process at the BIA. In February 2007, our petition was 
placed on the OFA ``Ready'' list--we are number 10 on that list. The 
group at the top of the list was placed there in 1996, so we do not 
anticipate early review of our petition. In fact, we are told that it 
will be 15 to 20 years at least, maybe longer, before our petition will 
be reviewed if the current pace of review is not changed.
    We are fortunate that our Michigan Senators Levin and Stabenow 
support recognition for the Grand River Bands of Ottawa Indians and 
introduced legislation in both this Congress (S. 1058) and in the 109th 
Congress (S. 437). The legislation would require the BIA to expedite 
review of our petition because of our unique circumstances. We will 
discuss those circumstances briefly here but we also refer you to our 
testimony at a hearing before this Committee on June 21, 2006 on S. 
437.
    The Grand River Bands of Ottawa Indians (``Tribe'') is located in 
south central Michigan. Our tribal ancestors signed three treaties with 
the United States: the 1821 Treaty of Chicago, the 1836 Treaty of 
Washington and the 1855 Treaty of Detroit. Our members trace their 
ancestry to signatories of these treaties and we have maintained 
continuous tribal relationships to this day. In the mid-1930's, we 
sought to organize under the 1934 Indian Reorganization Act but there 
was no money for land purchases which the BIA believed was necessary 
for us to organize. By then all of the Tribe's treaty lands in Michigan 
had been wrongfully alienated. BIA's Commissioner at that time, John 
Collier, determined that the Tribe was eligible for reorganization 
under the 1934 Indian Reorganization Act (25 U.S.C. 461). The Tribe, 
thus, has never received the Federal health, education, welfare and 
housing services that its members so desperately need.
    Nevertheless, in 1976, BIA Commissioner Morris Thompson said in a 
letter to the Solicitor at DOI that the Grand River Bands of Ottawa 
Indians were ``functioning as or at least are accepted as tribal 
political entities by the Minneapolis Area and Great Lakes Agency.'' 
See: Senate Report 103-260 that accompanied S. 1357, a 1994 bill to 
recognize the Little River Bands of Ottawa Indians and the Little 
Traverse Bay Bands of Odawa Indians (P.L. 103-324; 25 U.S.C. 1300k). 
While the Grand River Bands is mentioned throughout the Report on the 
bill to recognize its two sister Ottawa Tribes, the final bill did not 
include the Grand River Bands of Ottawa Indians.
    This Senate Committee report concludes that ``the Bands were not 
terminated through an act of the Congress, but rather they were 
unfairly terminated as a result of both faulty and inconsistent 
administrative decisions contrary to the intent of the Congress, 
Federal Indian law and the trust responsibility of the United States . 
. . the Committee strongly affirms that the trust responsibility of the 
United States is not predicated on the availability of appropriated 
funds. Further, the possession of a tribal land base is not the 
foundation for determining tribal status.''
    The Final Report of the American Indian Policy Review Commission 
(AIPRC) chartered by Congress listed the Grand River Bands of Ottawa 
Indians among the tribes who had suffered from ``the inequitable 
administration of Federal programs and laws and . . . the accidents and 
vagaries of history.'' Attached is a summary of the AIPRC Report and 
Recommendation on Recognition prepared by our attorneys. You will note 
that very little has changed since then except that the process has 
become almost impossible to navigate.
    Even though Grand River was not recognized in 1934, we have 
continued to act as a Tribe. For example, our leaders were instrumental 
in forming the Northern Michigan Ottawa Association (NMOA), the group 
that brought land and accounting claims before the Indian Claims 
Commission in the late 1940's and early 1950's. Those claims took many 
years to process and the Grand River Bands' first judgment award was 
enacted by Congress in 1976. (P.L. 94-540, October 18, 1976) The Tribe 
continued to work on these claims and in 1994 we filed a letter with 
the BIA stating our intent to file a documented petition for 
recognition. In that same year, Congress legislatively recognized two 
of our sister tribes: the Little River Band of Ottawa Indians and the 
Little Traverse Bay Bands of Odawa Indians. Our elders preferred the 
BIA process because they feared that if we were not successful, we 
might be precluded from going through the BIA/OFA process.
    In 1997, Congress passed the Michigan Indian Land Claims Settlement 
Act (P.L. 105-143) which, in addition to providing for distribution of 
judgment funds to the successor recognized treaty tribes, also provided 
for distribution to treaty tribes not yet recognized, particularly the 
Grand River Bands. The proviso was that the tribe had to submit its 
full petition by December 2000 and the BIA had to complete its action 
by the statutory deadline for distribution of the funds to individuals 
(March 2007).
    Unfortunately, while the Grand River Bands of Ottawa Indians met 
its statutory deadline in filing its petition, the BIA failed to act on 
our petition. We did not even receive a technical assistance letter 
until January 2005 and by then we had approached Congress seeking help 
to secure a review of our petition. It took the Tribe nearly 17 months 
to gather the necessary documentation to respond to the technical 
assistance letter. We accepted money from investors to pay for the work 
of our historians and anthropologists. Our own members voluntarily did 
the very technical work of verifying our memberships through 
authenticated birth, death, baptism, and marriage records. We provided 
a full response to the BIA in May 2006.
    We were placed on the ``Ready for Active'' list 9 months later in 
February 2007, just 4 months before the BIA paid out the Judgment Funds 
to individual members in June 2007. This payment, while welcomed by 
many of our members who have waited a lifetime for payment, means that 
the tribe will not receive either the statutory 20 percent of judgment 
funds or the bonus money for newly recognized tribes authorized by the 
1997 Act. Those funds, about $3 million, will revert to the U.S. 
Treasury. For some, this would seem to mean less incentive to pursue 
expedited recognition, but we disagree. While the time is now past for 
the Tribe to receive the judgment funds, we feel strongly that the BIA 
should be held accountable for its failure to act on our behalf and 
should be required to provide expedited review of our petition.
    The Grand River Bands of Ottawa Indians are in grave danger of 
losing our Tribe if we are forced to wait another 15, 20 or 25 years 
for the BIA to act on our petition. The first petitioner on the Ready 
for Active list was placed there 11 years ago. Our Tribe is the tenth 
tribal group on that list. Our children do not have the health and 
education benefits that were promised in our treaties and that their 
cousins from Little River and Grand Traverse now enjoy. Our elders are 
dying without being sure that the Grand River Bands of Ottawa Indians 
will survive. Our hunting and fishing rights are being negotiated by 
others because the Tribe cannot be at the table due to its unrecognized 
status. The Tribe's jurisdiction over our children under the Indian 
Child Welfare Act could be eroded and our ability to provide for the 
reburial of our ancestors' remains under NAGPRA is also in danger. The 
State of Michigan is also considering the elimination of its higher 
education assistance to Michigan Indians. Most Indians in the State are 
now recognized and can access Federal and tribal education benefits.
    In fact, there is significant pressure on our members to enroll in 
other tribes where benefits are available. Since the judgment funds 
were paid in June 2007, at least two or three members each week have 
advised us that they are giving up their membership in the Tribe. They 
all continue to believe that the Grand River Bands of Ottawa Indians is 
their tribe, yet they become members at Little River or at Little 
Traverse or at Grand Traverse in order to be eligible for services. 
However, not all our members are eligible for membership in these other 
tribes. The Grand River Bands of Ottawa Indians must survive and to do 
so it must be recognized by the United States.
    In the years since the Tribe first filed its petition, we have 
observed the process closely and have reach several conclusions we 
would like share with the Committee:
    Accountability: A serious problem with the Federal acknowledgment 
process is that the OFA often does not follow its own regulations and 
there is no accountability of any kind for its failure to do so. Indian 
groups seeking Federal recognition have no recourse when OFA does not 
meet the requirements of 25 C.F.R. 83. For example, the regulations say 
that ``Within 1 year after notifying the petitioner that active 
consideration of the documented petition has begun, the Assistant 
Secretary shall publish proposed findings in the Federal Register. The 
Assistant Secretary has the discretion to extend that period up to an 
additional 180 days.'' (25 C.F.R. 83.10(h)) An objective read would say 
the Department is entitled to one extension but the Department has 
interpreted this rule to mean that the Assistant Secretary can extend 
the time for proposed findings for multiple 180 day periods. In one 
recent case, the Department has extended the review period three 
times--an additional one and one-half years and counting. Unless 
Congress enacts statutorily enforceable rules, the BIA will continue to 
proceed at its own very slow pace with no recourse by petitioning 
tribes. And, as the Committee might imagine, petitioning groups are 
naturally reluctant to object because they can object only to the very 
people who will ultimately decide the fate of the tribe.
    Inherent Bias at the BIA: Another fundamental problem is the 
inherent bias against recognition of new tribes within the agency 
tasked with granting recognition. This bias is evidenced by the numbers 
of positive determinations and negative determinations in recent years. 
Recognized tribes are not anxious to share with newly recognized tribes 
the scarce money available at the BIA for tribal programs. The BIA, an 
Indian preference agency, serves only recognized tribes and Indians who 
can show that they are one-half Indian blood. An independent agency 
with recognition authority would be more suitable for this purpose.
    The burden of proving each and every detail of its existence over 
many decades--even hundreds of years--should not be on the petitioning 
tribe. If a group is recognized as a tribe by other tribes, if it is 
recognized by the state, if it can show dealings with the United States 
through treaties and statutes, and if its members can show that they 
descend from an historic tribe--these items should be sufficient to 
show the group is entitled to recognition. Any reasonable person 
looking at an unrecognized group of Indian people now, in the early 
21st Century, should be amazed that the group has preserved its tribal 
traditions, culture and sometimes even its language. This survival 
alone deserves much weight, given the poverty and other obstacles that 
unrecognized groups face, but there is seemingly no consideration given 
to such issues.
    The Grand River Bands of Ottawa Indians believes that if a prima 
facie case can be made to show that a group has held together as a 
tribe, despite the tremendous pressures against survival, then the 
burden should be on others to prove that the group is not, in fact, an 
Indian tribe deserving of Federal recognition. Grand River is a treaty 
tribe, our members descend from treaty signatories, we have our 
language, we have our tribal traditions, we have demonstrated tribal 
leadership, we have our land and accounting claims. In fact, we have 
everything but recognition and the Federal services our members so 
desperately need. It is taking hundreds of thousands of dollars to 
prove our case and, until our petition is acted upon, we do not know if 
we have proved it to the BIA's satisfaction.
    Certainly, a very critical issue is the subjective way in which the 
BIA/OFA staff review and interpret the documents that have so 
diligently been assembled for them. One tribe, the Miami Nation of 
Indiana, was told that, in the opinion of the BIA, their tribal picnic 
held annually from 1917 was not in fact a tribal event but merely a 
social gathering of related people. Thus, documenting the gatherings 
was pointless because even though the tribal members themselves 
believed they came together regularly as a tribe, some staff researcher 
``believed'' otherwise. Like any community of people, tribes are 
organic and they do not put up walls to keep people in or keep people 
out.
    Influence of Gaming: The allegations made by some critics that the 
petitioning groups are in the process because of gaming are absurd and 
insulting. It would be short work indeed to weed out the groups that do 
not belong in the process and who are only looking at the gaming 
rainbow. But the fact is that many petitioning groups, including the 
Grand River Bands of Ottawa Indians, have to rely on gaming investors 
to cover the costs of the basic research needed to document the Tribe's 
existence. While it can be argued that many of the petitions filed 
after enactment of the Indian Gaming Regulatory Act were influenced by 
gaming, we can flatly state that ours was not. Grand River is a very 
traditional Tribe of Ottawa Indians and most members have never 
supported any attempts by out of state gaming developers to invest in 
us for gaming purposes. About 4 years ago, a group in Muskegon 
approached us because the City had agreed by referendum to explore 
gaming as a way to counter the growing economic decline in that area. 
The Tribe accepted their help because we needed the financial support 
and because the investors are our neighbors who solidly support our 
recognition efforts. If the Tribe can develop a gaming and resort 
complex, it would mean a great deal to the entire area. We are 
grateful, not just to our investors, but to the numerous civic groups 
and officials and even ordinary citizens who are rooting for us to 
become recognized.
    On the gaming point, our attorneys have done an analysis of the 
petitions submitted to the OFA. They found that on the average 10 or 11 
groups have filed every year since the regulations were first published 
in 1978. There is no sign of a huge influx because of Indian gaming 
that began in earnest in the early 1990's. While we do agree that there 
may be marginal groups that would not have filed except for the lure of 
gaming, those petitioners can probably be dispensed with rather quickly 
under the current procedures.
    One Size Does Not Fit All: Another finding of our attorneys is that 
23 percent of the petitioning groups are from California. As the 
Committee knows, the Indian tribes in California have a very special, 
and often dark, history of relations with the United States. We are not 
experts on their history but we know there was a concerted effort by 
the U.S. Government to exterminate the Indian people in California. 
Like many Indian groups in the Eastern United States, who basically 
went underground to survive racist laws, California Indians groups were 
quiet for decades and that quietness allowed them to survive. Now they 
are ready to take their rightful place among federally recognized 
tribes but the seven criteria do not always fit the small groups 
remaining on the Rancherias that were set aside for them. The Federal 
acknowledgment process needs to honor the special circumstances of 
these Indian tribes and to provide a system for acknowledgment that 
fits their needs and their culture.
    Conclusion: The Grand River Bands of Ottawa Indians believes our 
situation is very unique and is deserving of Congressional action. In 
addition, we would like very much to assist the Committee in 
understanding and addressing the Federal acknowledgment issues 
presented today by us and by other witnesses. When the regulations were 
first formulated, petitions were less than 100 pages with minimal 
documentation. Now they are thousands of pages, dozens of boxes of 
documents and backup CDs, and the process has gone from a few months 
per petition to 20 or 30 years per petition. It is no longer tenable. 
We hope that the Committee and the Congress will act very soon to 
remedy this process that is strangling in minutiae.

Attachment A

Recognition Revisited--Notes from the Final Report of the 1977 American 
Indian Policy Review Commission--Prepared by Virginia W. Boylan, Esq., 
 Drinker Biddle & Reath, Attorney for the Grand River Bands of Ottawa 
                                Indians

    Introduction: Public Law 93-580 established the American Indian 
Policy Review Commission. The Commission was Chaired by Senator James 
Abourezk (SD), * and was directed to undertake a comprehensive review 
of the historical and legal status of the Indians' relationship with 
the Federal Government and to make recommendations on policy and 
program revisions needed to meet the Federal Government's 
responsibility to Indian people. The Commission established 11 Task 
Forces; Task force 10 was devoted to ``Unrecognized Indians.''
---------------------------------------------------------------------------
    * The Commission's other members were Representative Lloyd Meeds 
(WA), Vice Chairman; Senators Lee Metcalf (MT) and Mark Hatfield (OR); 
Representatives Sidney Yates (IL), Sam Steiger (AZ) and Don Young (AK) 
and five tribal leaders, John Borbridge (Tlingit-Haida), Louis Bruce 
(Mohawk), Ada Deer (Menominee), Adolph Dial (Lumbee) and Jake White 
Crow, (Quapaw-Seneca-Cayuga).
---------------------------------------------------------------------------
    The findings of the Commission are as instructive and relevant 
today as when they were made to the House and Senate in 1977. The Final 
Report (``Report'') said that ``the past must be used as a backdrop, 
rather than as an indictment.'' (p. 1, vol. 1, FR) The Commission 
addressed the historical ambivalence of the Federal Government toward 
Indians where, on the one hand, multiple methods were employed to force 
them to stop being Indians and, on the other hand, promises were made 
that the United States would protect their right to live as Indians and 
to practice their beliefs in accordance with their own tribal 
traditions. In developing recommendations to resolve problems and to 
insure that the United States would keep its promises, the Commission 
heard--for the first time in history--directly from the Indian people 
themselves.
    The recommendations contained in this seminal Final Report led 
Congress to restore virtually all of the tribes that were terminated in 
the 1950s. The Report also led the Congress to enact the Indian Child 
Welfare Act, the Indian Civil Rights Act, and numerous other laws to 
protect and enhance the right of American Indian tribes to determine 
for themselves how to operate their governments and to provide for 
their citizens. The importance of the Commission and its 
recommendations can hardly be overstated, particularly in conjunction 
with the virtually simultaneous enactment of the Indian Self 
Determination and Education Assistance Act, P.L. 93-638, that was 
signed by President Ford in January 1975, the same month that he signed 
P.L. 93-580. Taken together, these initiatives helped to lift the heavy 
hand of the Federal bureaucracy from the backs of tribal governments 
and allow them to move ahead financially and socially, while still 
preserving the trust responsibility of the United States for Indian 
resources.
    Unfortunately, Congress has failed to address the recommendations 
of the Commission on Federal recognition of Indian tribes. Given the 
other areas of such great success, it is unfathomable that Congress has 
neglected to give the Department of the Interior any statutory guidance 
about this very important issue. The rights of Indians everywhere in 
this Nation are being trampled daily by the failure of the Congress and 
the Department to even understand the extent of this failure or the 
very urgent need to remedy it.
    Summary of Recognition Recommendations: Fourteen of the 
Commission's 206 recommendations (numbers 164 to 177) to the Congress 
on Indian issues deal with recognition issues. The most pertinent 
recommendations are shown below:

        166. To insure that the above declaration is carried out, 
        Congress, by legislation, create a special office, for a 
        specific period of operation, such as 10 years, independent 
        from the present Bureau of Indian Affairs, entrusted with the 
        responsibility of affirming tribes' relationships with the 
        Federal Government and empowered to direct Federal Indian 
        programs to these tribal communities. . . .

        168. A tribe or group or community claiming to be Indian or 
        aboriginal to the United States be recognized unless the United 
        States acting through the special office created by Congress, 
        can establish through hearings and investigations that the 
        group does not meet any one of the following definitional 
        factors:

           (a) The group exhibits evidence of historic continuance as 
        an Indian tribal group from the time of European contact or 
        from a time predating European contact. ``Historic 
        continuance'' includes any subsequent fragmentation or division 
        of a specific tribe or group, and any confederation or 
        amalgamation of specific tribes, bands, or groups and 
        subdivisions.

           (b) The Indian group has had treaty relations with the 
        United States, individual States, or preexisting colonial and/
        or territorial governments. ``Treaty relations'' include any 
        formal relationship based on a government's acknowledgment of 
        the Indian group's separate or distinct status.

           (c) The group has been denominated an Indian tribe or 
        designated as ``Indian'' by an Act of Congress or executive 
        order of State governments which provided for, or otherwise 
        affected or identified the governmental structure, 
        jurisdiction, or property of the tribal groups in a special or 
        unique relationship to the State government.

           (d) The Indian group has held collective rights in tribal 
        lands or funds, whether or not it was expressly designated a 
        tribe. ``Lands'' includes lands reserved for the group's 
        exclusive use, occupancy, or related general purposes which 
        have been acquired by the group through Act of Congress, 
        Executive or administrative action, or through such related 
        acts by preexisting colonial and/or territorial governments, or 
        by State governments or through the purchase of such lands by 
        the group. ``Funds'' includes money designated for the group's 
        exclusive use, possession or related general purposes by Act of 
        Congress, Executive or administrative action, or by such 
        related acts of preexisting colonial and/or territorial 
        governments, or by State governments, or by judgment awards of 
        the U.S. Court of Claims, U.S. Indian Claims Commission, 
        Federal or State courts.

           (e)The group has been treated as Indian by other Indian 
        tribes or groups. Such treatment can be evidenced by 
        relationships established for purposes connected with crafts, 
        sports political affairs, social affairs, economic relations, 
        or any intertribal activity.

           (f)The Indian group has exercised political authority over 
        its Members through a tribal council or other such governmental 
        structure which the Indian group has determined and defined as 
        its own form of government.

           (g)The group has been officially designated as an Indian 
        tribe, group, or community by the Federal Government or by a 
        State government, county (or parish) government, township, or 
        local municipality.

        169. If the United States finds that the claimants do not meet 
        any of these definitional factors, such a determination must be 
        made in writing to the claimants and the decision shall be 
        reviewable by a three-judge Federal district court with the 
        burden remaining upon the 'United States to establish that the 
        claimants are not an Indian tribal community.

        170. If the United States affirms through the special office 
        that a claimant tribe or group meets any one of the standards 
        set forth above, it shall promptly begin negotiations with the 
        tribe or group for purposes of extending all benefits and 
        protections of the laws of the United States directed toward 
        Indians to the extent agreed to by the tribe or group. The 
        agencies designated to provide for the negotiation of 
        protection and benefits shall submit to the Congress such 
        additional requests for appropriations as are necessary to 
        fulfill these obligations.

    The key to the Commission's recommendations was that Congress 
itself should adopt a statement of policy directing the executive 
branch to serve all Indian tribes and, further, that Congress should 
create a special Office outside the BIA to establish, by hearings and 
investigations, that a group met any one of seven factors. The 
recommendation was that if a group met any one of the seven enumerated 
factors, the Tribe should be recognized by the United States and its 
members should receive services. Only if the Office found that the 
group did ``not meet any of these definitional factors'' would the 
group not be considered an Indian tribal community. That would be 
subject to appeal.
    Compare this to the system at the BIA's Office of Federal 
Acknowledgment where there are also seven criteria (that are far more 
rigid) and where the Department demands that a group meet all of the 
seven criteria. And while the criteria were developed by the 
Department, not the Congress, the intent of the drafters is not to be 
faulted. In 1978, staff who drafted the criteria with no statutory 
underpinnings believed it would take 2-3 months to review each 
petitioner's file. Compare that to the current time range of 15 to 20 
years for the Office of Federal Acknowledgment at the BIA to complete 
its work on any single petition, as well as the amount of expensive and 
even excessive documentation required by the OFA--which is simply 
numbing.
    Highlights of Task Force 10 Findings: With the exception of 
specific termination acts of Congress, the Commission found no 
``legitimate foundation for denying Indian identification to any tribe 
or community. The BIA has no authority to refuse services to any member 
of the Indian population.'' The Final Report found that non-recognition 
was incomprehensible to Indians who had been neglected and forgotten. 
The major indictment was the Department's inconsistent determination 
about which groups it chose to recognize or not. ``Trying to find a 
pattern for the administrative determination of a federally recognized 
Indian tribe is an exercise in futility. There is no reasonable 
explanation for the exclusion of more than 100 tribes from the Federal 
trust responsibility.'' (p. 462, F.R.)
    The Final Report determined that before treaty-making was outlawed, 
treaties were the usual predicate for the special Federal-Indian 
relationship. However, the Report found that some tribes with treaties 
were not recognized while some tribes without treaties were recognized. 
Similarly, tribes mentioned in legislation sometimes received no 
Federal attention while tribes which never received any mention in 
legislation did receive services. The Report found that the BIA ``never 
. . . rationalized its vague policy of excluding a particular tribe.'' 
Further, ``there is no foundation for the executive branch's refusal to 
serve any tribe.'' (p. 462, F.R.)
    The Final Report quotes the following from the Task Force 10 Report 
at page 1695:

        The results of ``nonrecognition'' upon Indian communities and 
        individuals have been devastation . . . : The continued erosion 
        of tribal lands, or the complete loss thereof; the 
        deterioration of cohesive, effective tribal governments and 
        social organizations; and the elimination of special Federal 
        services, through the continued denial of such services which 
        Indian communities in general appear to need desperately. 
        Further, the Indians are uniformly perplexed by the current 
        usage of ``Federal recognition'' and cannot understand why the 
        Federal Government has continually ignored their existence as 
        Indians. Characteristically, Indians have viewed their lack of 
        recognition as Indians by the Federal Government in utter 
        disbelief and complete dismay and feel the classification as 
        ``nonfederally recognized'' is both degrading and wholy (sic) 
        unjustified.

    The Final Report discussed the impact of colonialism, post-colonial 
treatment including removal, and various other Federal Indian policies 
on the tribes that are not recognized. The criteria expressed by Felix 
Cohen in his Handbook of Federal Indian Law in 1940 apparently gave 
guidance to the Department for determining whether a group is a tribe 
and those criteria were:

        (a) Tribe had treaty relations with U.S.;
        (b) Tribe was mentioned in a Federal statute;
        (c) Tribal members have collective rights to tribal lands or 
        funds;
        (d) Tribe is treated as a tribe by other Indian tribes;
        (e) Tribe exercises political authority over members.

    The Department's adherence to these guidelines was inconsistent 
and/or arbitrary and the Report notes that Members of Congress, 
``especially when they are not members of the House or Senate Interior 
Committee . . . have been as confused by recognition policy as their 
tribal constituents are.'' (p. 478, F.R.) In one early 1970's court 
case, the Department stipulated that the tribe was an Indian tribe but 
that because it was ``unrecognized'', the Department was not required 
to prosecute the tribe's claim against a state. The court found that 
the Department had a trust obligation to the tribe.

        The Commission's policy recommendations included the following:

         There must be a firm legal foundation for the establishment 
        and recognition of tribal relationships with the United States.

         There must be a valid and consistent set of factors applied to 
        every Indian tribal group which seeks recognition.

         Every Indian tribal group which seeks recognition must be 
        recognized; every determination that a group is not an Indian 
        tribal group must be justified soundly on the failure of that 
        group to meet any of the factors which would indicate Indian 
        tribal existence. (p. 479, F.R.)

    Subsequent treatment of unrecognized groups by the Department has 
turned these recommendations upside down so that groups are not 
recognized unless they meet each and every one of the seven criteria 
found in the regulations drafted by the BIA (see: 25 C.F.R. 83).
    Conclusion: The Final Report recommends that Congress act in the 
area of recognition by establishing, for a specific period (e.g., 10 
years), a special Office that is independent of the BIA. The Office 
would be responsible for affirming a tribes' relationship with the 
Federal Government and ensuring that duties are spelled out in the 
recommendations (see #166 through #171). It is not too late for 
Congress to implement the directives of this Commission. In fact, it is 
even more urgent that Congress act--and act soon--because the system 
now in use even is more broken than the one visited by the Commission 
in 1976 and 1977.
Attachment B
   Questions About Federal Recognition of Indian Tribes--Prepared by 
Virginia W. Boylan, Esq., Drinker Biddle & Reath LLP, Attorney for the 
                  Grand River Bands of Ottawa Indians
What does Federal Recognition Mean?
    Only Indians who are members of federally recognized tribes are 
eligible for the services provided by the United States through the 
Bureau of Indian Affairs and the Indian Health Service.

    Tribes that are federally recognized enjoy a government-to-
government relationship with the United States and, under self-
determination, can contract to operate Federal programs for Indian 
people.

    There is a trust relationship from the United States to each of the 
recognized tribes .

Where are the Tribes located that are Recognized by the Federal 
        Government?
    According to the latest list published by the Secretary of the 
Interior in December 2003, there are 565 federally recognized tribes:

    Fully 58 percent of all tribes are located in just two states: 40 
percent in Alaska (229 Native Villages and tribal entities) and 18 
percent in California (103 tribes).

    Another 20 percent of the tribes (111 tribes) are located in just 
five other Western states: Washington, Oregon, Oklahoma, Arizona, and 
New Mexico.

    Less than 4 percent of the total number of recognized tribes (21 
tribes) are located in Eastern states such as Florida, South Carolina, 
Connecticut, Alabama, and Louisiana.

    The other 18 percent (101 tribes) are located in 17 other states 
that span Nevada, Idaho, the Great Plains, the Great Lakes, and the 
mid-West.

What is the Process for Achieving Recognition?
    Most tribes were ``formally'' recognized by the Secretary of the 
Interior after passage of the 1934 Indian Reorganization Act, although 
many did not actually organize under that Act.

    Since 1978, regulations have been in place to allow Indian groups 
who believe they are eligible for Federal status to petition the Office 
of Federal Acknowledgment (OFA) for recognition. The group will be 
granted Federal status if it fully meets seven enumerated criteria 
regarding its history, its identification, its cohesion as a political 
entity, its descendancy from an historic Indian tribe and certain other 
requirements.

    Since 1934, through legislation, the U.S. Congress has recognized a 
number of tribes or has restored to recognized status tribes that had 
been previously terminated.

    In some cases, the Bureau of Indian Affairs (BIA) at the Department 
of the Interior has recognized tribes after it determined that an 
administrative error was responsible for the tribe not being on the 
``list'' of federally recognized tribes.

    Some courts cases led to the restoration of tribes, particularly in 
California, through negotiated settlements of lawsuits.

How Does the OFA Process Petitions?
    As of February 2007 a total of 309 groups had sent letters of 
intent to petition since the criteria were first published in 1978.

    The OFA maintains four ``lists'' that indicate the stage of review 
for each petitioning group.

    The first list is the ``Active'' list of 8 petitions. These are the 
petitions that the OFA is actively considering for either a proposed 
finding (positive or negative) or a final determination (positive or 
negative) based on whether (or not) the petitioner meets the seven 
criteria.

    The second list is the ``Ready for Active'' register of nine (9) 
petitioners that have fully documented petitions ready for review. The 
earliest petition was placed on the Ready register in February 1996 and 
the last was added in 2003 (another group was transferred from the 
Incomplete list to the Ready list in May 2007, the first in 4 years to 
make any movement to this list).

    The third list is the ``Register of Incomplete Petitions'' which 
includes the 78 groups that have provided some documentation to the 
OFA. OFA has provided some technical assistance to all but 29 of these 
petitioners.

    The final is the ``Register of Letters of Intent''--as noted, there 
are 147 groups on this list that have only sent letters indicating 
their intent to file a petition; of these, 26 were sent before 1990.

What is the Status of the Petitions?
    Over a period of nearly 30 years, the BIA has ``resolved'' 75 
petitions or about 2.5 petitions per year (4 of these are in post-
determination appeals). There are now 95 groups that have submitted all 
or part of their documentation that are awaiting BIA review. At the 
current rate, it will take 38 years to finish these. In reality, the 
BIA/OFA actually reviewed only 40 petitions when the number of 
petitions addressed by Congress or resolved in another manner is taken 
into account. The real rate of BIA/OFA review is just over 1.3 
petitions per year. Therefore, unless the Congress steps in, it will 
take 73 years to address the 95 petitions that have already provided 
some documentation to the BIA. And of course the 147 petitioners with 
only letters of intent will never receive any review or attention 
unless the Congress alters the system. In addition, some of the 26 
petitioning groups that were denied acknowledgment by OFA are seeking 
opportunities to appeal those denials, some of which many observers 
agree were grossly unfair.

    The average number of groups filing letters of intent to petition 
has remained fairly constant at an average of 10 or 11 each year from 
1978 through 2006.

    Since 1978, the Secretary of the Interior has acknowledged 16 
groups as Federal tribes; another 26 groups have been denied 
acknowledgment-of these, two are in litigation and two have appeals 
pending before the Interior Board of Indian Appeals.

    Congress legislatively recognized 10 tribes that had filed 
petitions with the OFA.

    Another 23 groups have either withdrawn their petitions (5), merged 
with another group (4), are no longer in touch with the OFA (11), 
dissolved (1), been administratively recognized (1), or been determined 
not to be an Indian group (1). Six other petitioners are not eligible 
to go through the OFA process unless Congress acts to allow them to do 
so.

Where are the Petitioners Located?
    Of the 309 total petitioning groups, 72 (or 23 percent) are located 
in the State of California.

    There are 128 petitioners (41 percent) from 22 states east of the 
Mississippi.

    The Chairman. Chairman Yob, thank you very much for your 
testimony as well.
    Finally, we have representing the Bureau of Indian Affairs 
and the Department of the Interior Mr. Lee Fleming, Director of 
the Office of Federal Acknowledgement with us today, Mr. 
Fleming, would you please proceed?

        STATEMENT OF R. LEE FLEMING, DIRECTOR, OFFICE OF

              FEDERAL ACKNOWLEDGEMENT, OFFICE OF THE

    ASSISTANT SECRETARY--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Fleming. Good morning, Mr. Chairman and members of the 
Committee. My name is Lee Fleming, Director of the Office of 
Federal Acknowledgement, and I am submitting the 
Administration's statement on the process that the Federal 
Government follows when it receives a petition from a group 
seeking Federal acknowledgement as an Indian tribe under 25 
C.F.R. Part 83 and changes we are undertaking to expedite this 
process.
    The acknowledgement of the continued existence of another 
sovereign entity is one of the most solemn and important 
responsibilities delegated to the Secretary of the Interior. 
Federal acknowledgement enables that sovereign entity to 
participate in Federal programs for Indian tribes and most 
importantly, acknowledges a government-to-government 
relationship between an Indian tribe and the United States.
    These decisions have significant impacts on the petitioning 
groups, the surrounding communities and Federal, State and 
local governments. Acknowledgement carries with it certain 
immunities and privileges, including partial exemptions from 
State and local jurisdictions and the ability of newly 
acknowledged Indian tribes to undertake certain economic 
opportunities.
    Established in 1978, the Department's Federal 
acknowledgement process allows for the uniform and rigorous 
review necessary to make an informed decision on whether to 
acknowledge a petitioner's government-to-government 
relationship with the United States. The regulations require 
groups to establish that they have had a substantially 
continuous existence and have functioned as autonomous entities 
throughout history until the present.
    Under the Department's regulations, petitioners must 
demonstrate that they meet each of the seven mandatory 
criteria. Let me abbreviate these criteria. First, the 
petitioner must have identifications as an American Indian 
entity since 1900. Two, the group must show distinct community 
from historical times until the present. Three, the petitioner 
must demonstrate political influence or authority from 
historical times until the present. Four, provide a copy of the 
group's present governing document.
    Five, demonstrate that descent from a historical Indian 
tribe is there and provide a current membership list. Sixth, 
the petitioner must show that the group is composed principally 
of persons who are not members of any other federally 
recognized Indian tribes. And last, seven, the group must 
demonstrate that neither the petitioner nor its members are 
subjects of Congressional legislation that has expressly 
terminated or forbidden the Federal relationship.
    A criterion is considered met if the available evidence 
establishes a reasonable likelihood of the validity of the 
facts relating to that criterion. A petitioner must satisfy all 
seven of the mandatory criteria in order for the Department to 
acknowledge the continued tribal existence of the group as an 
Indian tribe.
    The Federal Acknowledgement Office is composed of a 
director, a secretary, four anthropologists, three genealogists 
and four historians. A team composed of one professional from 
each of the three disciplines reviews each petition. 
Additionally, the Office of Federal Acknowledgement has a 
contract that provides research and administrative assistance.
    Currently, the Office of Federal Acknowledgement workload 
consists of 17 petitions, broken down as 7 petitioners are on 
active consideration and 10 are fully documented petitions that 
are ready, waiting for active consideration. We are considering 
several actions to expedite and clarify the Federal 
acknowledgement process. Some of these would require changes to 
internal workload processes to eliminate backlogs and delays, 
and some would require revisions to the regulations.
    We plan to distribute revised regulations and guidelines so 
petitioners and interested parties know what the OFA review 
teams expect and what the regulations require in order to 
provide more clarity in submissions. OFA could recommend an 
application form for petitioners to use to point to specific 
evidence in their submission that meets the criteria for 
specific time periods. OFA could also recommend that 
petitioners present their genealogies in a common format used 
by genealogists known as GEDCOM, and provide membership lists 
in an electronic data base.
    Once a petition has been received, the genealogist, 
historian and anthropologist in a research team evaluate a 
petition concurrently. We are considering changing this to a 
review in stages, with the genealogist first, followed by the 
historian and anthropologist. The genealogist's advance work, 
prior to the petition going on the active list, would prepare 
the way for the other professionals during the active review 
process. We also plan on developing a list of common questions 
and procedures that the research teams or new research staff 
would use to speed up the evaluations and note the potential 
deficiencies in the petitions.
    Further, OFA is looking at the possibility of moving to the 
front of the ready, waiting for active consideration list 
groups that can show residence and association on a State 
Indian reservation continuously for the past 100 years or 
groups that voted for the Indian Reorganization Act in 1934, if 
the group appears to have met subsections (e), (f) and (g) of 
the regulations.
    Limiting the number of technical assistance reviews and 
imposing a time period for petitioner response to a technical 
assistance review letter would also help move petitions along 
faster. We will attempt to create more concise decision 
documents to speed the process and improve the public's ability 
to understand the decision.
    The Department also plans to post decisions and technical 
assistance letters on the website for public access. These 
steps would free OFA to spend more time on review of the 
petitions and allow for greater transparency to the general 
public. Technological improvements would also speed OFA's 
tasks.
    Our goal is to improve the process so that all groups 
seeking acknowledgement can be processed and completed within a 
set timeframe. We are considering various ideas for improving 
the acknowledgement process. Options including hiring and 
contracting additional staff, establishing a time line for 
responding to each step of the regulations to ensure that 
petitions move along, and moving the first sustained contact 
requirement for some cases to start at the point when that area 
became a part of the United States or at the inception of the 
United States in 1776 to ease the burden on petitioners and 
reduce time-consuming research into colonial histories.
    Thank you for the opportunity to provide my statement on 
the Federal acknowledge process, and I will be happy to answer 
any questions the Committee may have.
    [The prepared statement of Mr. Fleming follows:]

   Prepared Statement of R. Lee Fleming, Director, Office of Federal 
  Acknowledgement, Office of the Assistant Secretary--Indian Affairs, 
                    U.S. Department of the Interior

    Mr. Chairman and Members of the Committee, I am submitting the 
Administration's statement on the process that the Federal Government 
follows when it receives a petition from a group seeking Federal 
acknowledgment as an Indian tribe under 25 C.F.R. Part 83 and changes 
we are undertaking to expedite this process.

Implications of Federal Acknowledgment
    The acknowledgment of the continued existence of another sovereign 
entity is one of the most solemn and important responsibilities 
delegated to the Secretary of the Interior. Federal acknowledgment 
enables that sovereign entity to participate in Federal programs for 
Indian tribes and acknowledges a government-to-government relationship 
between an Indian tribe and the United States.
    These decisions have significant impacts on the petitioning group, 
the surrounding communities, and Federal, state, and local governments. 
Acknowledgment carries with it certain immunities and privileges, 
including partial exemptions from state and local jurisdictions, and 
the ability of newly acknowledged Indian tribes to undertake certain 
economic opportunities.
    For instance, the Mashpee Wampanoag Indian Tribal Council recently 
received a positive decision under the Federal acknowledgment process 
and is now eligible to receive Federal health and education services 
for its members, to have the United States take land into trust that 
will not be subject to state taxation or jurisdiction, and to operate a 
gaming facility under the Indian Gaming Regulatory Act once it has met 
the conditions of that Act.

Background of the Federal Acknowledgement Process
    The Federal acknowledgment process set forth in 25 C.F.R. Part 83, 
``Procedures for Establishing that an American Indian Group Exists as 
an Indian Tribe,'' allows for the uniform and rigorous review necessary 
to make an informed decision on whether to acknowledge a petitioner's 
government-to-government relationship with the United States. The 
regulations require groups to establish that they have had a 
substantially continuous tribal existence and have functioned as 
autonomous entities throughout history until the present. Under the 
Department's regulations, petitioning groups must demonstrate that they 
meet each of seven mandatory criteria. The petitioner must:

        (a) demonstrate that it has been identified as an American 
        Indian entity on a substantially continuous basis since 1900;

        (b) show that a predominant portion of the petitioning group 
        comprises a distinct community and has existed as a community 
        from historical times until the present;

        (c) demonstrate that it has maintained political influence or 
        authority over its members as an autonomous entity from 
        historical times until the present;

        (d) provide a copy of the group's present governing document 
        including its membership criteria;

        (e) demonstrate that its membership consists of individuals who 
        descend from a historical Indian tribe or from historical 
        Indian tribes that combined and functioned as a single 
        autonomous political entity, and provide a current membership 
        list;

        (f) show that the membership of the petitioning group is 
        composed principally of persons who are not members of any 
        acknowledged North American Indian tribe; and

        (g) demonstrate that neither the petitioner nor its members are 
        the subject of congressional legislation that has expressly 
        terminated or forbidden the Federal relationship.

    A criterion is considered met if the available evidence establishes 
a reasonable likelihood of the validity of the facts relating to that 
criterion. A petitioner must satisfy all seven of the mandatory 
criteria in order for the Department to acknowledge the continued 
tribal existence of a group as an Indian tribe.
    The Federal acknowledgment process is implemented by the Office of 
Federal Acknowledgment (OFA). OFA is currently staffed with a director, 
a secretary, four anthropologists, three genealogists, and four 
historians. A team composed of one professional from each of the three 
disciplines reviews each petition. Additionally, OFA has a contract 
that provides for three research assistants and three records 
management/Freedom of Information Act specialists, as well as one 
Federal acknowledgment specialist.
    OFA's current workload consists of seven petitions on active 
consideration and ten fully documented petitions that are ready, 
waiting for active consideration. The administrative records for some 
completed petitions have been in excess of 30,000 pages. Two hundred 
forty-three other groups are not ready for evaluation because they have 
submitted only letters of intent to petition for Federal acknowledgment 
as an Indian tribe or partial documentation.
    The Interior Board of Indian Appeals (IBIA) just affirmed the 
negative final determinations for the Nipmuc petitioning groups 69A and 
69B, but referred to the Secretary of the Interior issues as possible 
grounds for reconsideration. In addition, there are two pending 
lawsuits seeking review of acknowledgment decisions.

Proposed Improvements to the Federal Recognition Process
    We are considering several actions to expedite and clarify the 
Federal acknowledgment process. Some of these would require changes to 
internal workload processes to eliminate backlogs and delays and some 
would require amendments to the regulations.
    For example, we plan to distribute revised guidelines so 
petitioners and interested parties know what the OFA review teams 
expect and what the regulations require in order to provide more 
clarity in submissions. Additionally, to speed up the review, the OFA 
could recommend an application form for petitioners to use to point to 
the specific evidence in their submission that meets the criteria for 
specific time periods. OFA could also recommend petitioners present 
their genealogies in a common format used by genealogists (GEDCOM) and 
provide membership lists in an electronic database.
    Once a petition has been received, the genealogist, historian, and 
anthropologist in a research team evaluate a petition concurrently. We 
are considering changing this to a review in stages, with the 
genealogist first, followed by the historian and anthropologist. The 
genealogist's advance work, prior to the petition going on the 
``active'' list, would prepare the way for the other professionals 
during the active review process.
    The OFA plans to develop lists of common questions and procedures 
that the research team or new research staff will use to speed up the 
evaluations and note the potential deficiencies in the petitions.
    Further, OFA is looking at the possibility of moving to the front 
of the ``Ready, Waiting for Active Consideration'' list groups that can 
show residence and association on a state Indian reservation 
continuously for the past 100 years or groups that voted for the Indian 
Reorganization Act (IRA) in 1934, if the groups appear to have met 
subsections (e), (f), and (g) of 25 C.F.R. Sec. 83.7.
    Limiting the number of technical assistance reviews and imposing a 
time period for petitioner response to a technical assistance review 
letter would also move petitions along faster. We will attempt to 
create more concise decision documents to speed the process and improve 
the public's ability to understand the decision.
    The Department also plans to post decisions and technical 
assistance letters on its website for public access. These steps would 
free OFA to spend more time on review of the petitions and allow for 
greater transparency to the general public.
    Technological improvements would also speed the OFA's task. We plan 
to revise the Federal Acknowledgment Information Resource (FAIR) 
computer data base. The final version of FAIR 2.0 will also allow for 
electronic redaction of documents under the Freedom of Information and 
Privacy Acts. In addition, revisions to the FAIR computer data base 
would allow faster work. FAIR provides OFA researchers with immediate 
access to the records, and the revised version will speed up the 
indexing of documents and allow for more data review capabilities, 
allowing OFA researchers to make efficient use of their time. The 
Department plans to purchase a heavy duty scanner, new computers and 
printers, establish an internet connection and software for faster 
scanning and work.
    Our goal is to improve the process so that all groups seeking 
acknowledgment can be processed and completed within a set timeframe. 
We are considering various ideas for improving the Federal 
acknowledgment process. Several options we may consider include:

  <bullet> Hiring or contracting additional staff.

  <bullet> Establishing a timeline for responding to each step of the 
        regulations to ensure that petitions move along.

  <bullet> Issuing negative proposed findings or final determinations 
        based on a single criterion would also speed work and maximize 
        researcher time use.

  <bullet> Allowing for an expedited negative proposed finding if a 
        petitioner has failed to adequately respond to a technical 
        assistance review letter or refuses to submit additional 
        required materials in response to this review.

  <bullet> Moving the ``first sustained contact'' requirement of 25 
        C.F.R. Sec. 83.7(b) and (c) for some cases to start at the 
        point when that area became a part of the United States or at 
        the inception of the United States in 1776 to ease the burden 
        on petitioners and reduce time-consuming research into colonial 
        histories.

    Thank you for the opportunity to provide my statement on the 
Federal acknowledgment process. I will be happy to answer any questions 
the Committee may have.

    The Chairman. Mr. Fleming, thank you very much for your 
testimony.
    I am going to ask a couple of questions, then I have to 
depart. Senator Murkowski is going to complete the hearing and 
I very much appreciate that.
    Let me ask, Chairperson Tucker, you have had a petition in 
front of the Interior Department for how long?
    Ms. Tucker. Our first one was filed in 1978. It didn't make 
the new restated regs, so it was returned. We started over. We 
wrote two in between. Our latest one, I think, was filed in the 
1990s. And now, we have had to revamp that petition. So when we 
go on active consideration, we will have another restated 
document with the changes that have taken place, including the 
digitizing of information.
    The Chairman. Of the three tribes recognized here, Mr. 
Goins, I am not asking this question of you, because you are 
actually prevented at the moment from going through this 
process, of the three tribes represented here, is it your 
testimony that your petitions are completed, you have filed all 
that is required to be filed, you have a complete petition in 
the process and you are only waiting at this point for action 
by the Interior, is that correct?
    Mr. Sinclair. Yes.
    Mr. Yob. Yes.
    Ms. Tucker. Yes.
    The Chairman. And Mr. Fleming, in your testimony, you talk 
about working on seven current petitions. What I have here is, 
those seven petitions started in 1979, 1974, 1982, 1980 and 
1978. Is that about right, do you think?
    Mr. Fleming. That's about correct.
    The Chairman. So, at least the oldest of those petitions 
would be 33 years.
    Mr. Fleming. Petitioners submit letters of intent and then 
the ball is in the court of the petitioner to do research and 
then to provide documentation.
    The Chairman. I understand. Ten petitioners are now 
awaiting review, the oldest of which is 1971. That is 36 years, 
and again, recognizing that is not necessarily the date in 
which all the information has been produced. But it describes, 
it seems to me, if you have petitions that you are now working 
on dating back to 1971, what we here in Congress see is, 
``Look, we have been working on this process with the 
Department of the Interior for 36 years. We have put all of our 
information in, we have submitted everything that was required 
of us, and still we wait.''
    Now, your testimony says there are 243 other groups not 
ready for evaluation, because they have submitted only letters 
of intent. Does that mean that in addition to what I have just 
described--seven that you are currently working on, ten that 
are awaiting a review--you have not yet started to review, and 
there are 243 other potential groups that say, we want Federal 
recognition as tribal organizations?
    Mr. Fleming. That is correct. We have a good number of 
groups that have only contacted us by submitting a letter of 
intent which is a letter that says we are interested in going 
through your process. And then when we publish notice of that 
letter of intent, then the groups are then responsible for 
documenting their petitions.
    The Chairman. Mr. Fleming, when Chairperson Tucker, 
Chairman Yob, Chairman Sinclair have submitted everything that 
you have requested, how long does it take you to make a 
decision?
    Mr. Fleming. The Federal acknowledgement process regulation 
itself designed a due process system that is 25 months, which 
is broken down into a 12 month review, formal review. At the 
end of that review, a proposed finding is published, so that 
the petitioner and interested parties know of the proposed 
decision to acknowledge or not to acknowledge. Then it opens to 
a 180 day public comment period to allow the petitioner and 
interested parties to provide any additional documentation 
regarding the proposed finding.
    Then there is the preparation of responses to those 
comments by the petitioner and then after that period, there is 
the period of 2 months for the Department to review all the 
evidence to issue a final determination. You also then have a 
3-month period after a final determination is published to 
allow the petitioner or interested parties to request 
reconsideration.
    So under the regulation, just by those time phases, it is a 
25 month process. However, we do have the backlog that we have 
been working under for quite some time. And add that to the 
waiting list, then you see how the delays have been----
    The Chairman. And that backlog would be, would add to the 
delay of the 25 months how long? Twenty-five months is a period 
which you now describe. But the backlog would extend that to 
how many years, do you think?
    Mr. Fleming. The GAO estimated it to be approximately 15 
years, I believe.
    The Chairman. All right, now, Mr. Fleming, you indicated on 
page four of your testimony that you are considering hiring, 
contracting additional staff, perhaps, establishing time lines 
and so on. Do you have authority at this point, or have you 
requested authority or has the Department of Interior requested 
funds to hire additional staff?
    Mr. Fleming. The budget process is being undertaken and 
those considerations are----
    The Chairman. Was a request made by your office and the 
Secretary of the Interior for additional staff?
    Mr. Fleming. It is a joint effort.
    The Chairman. But that request was made?
    Mr. Fleming. Yes.
    The Chairman. Let me just make a comment. I don't really 
know how long you have worked in this area, Mr. Fleming. This 
is a process that has, over several decades, and many 
administrations, proven to be a process that relates to undue 
delays, unfortunate misery, I would think, and expenditure for 
tribes or for those who seek to be recognized.
    I understand the recognition of a sovereign is a pretty 
awesome responsibility, because there are very substantial and 
important results from that determination. So I understand that 
we don't say, send us some papers and let us take a look at it, 
we will get back to you next month. I understand that. But I 
also understand that establishing a process that in some cases 
takes 15 years, 25 years or 30 years is untenable. And it is 
unfair, it is unfair to the folks that Mr. Sinclair has 
described and Mr. Yob, Chairperson Tucker. It is just unfair. 
And we have got to find a way to fix this. We can't say there's 
a process if the process doesn't work.
    Mr. Goins is in a different situation. And it seems to me 
that Congress has two choices with Mr. Goins' situation. One is 
to enact legislation directly, as my colleagues have suggested, 
or the second is to eliminate the impediment for them to go to 
the Department of the Interior and require of the Department of 
the Interior an expedited opinion.
    But it seems to me that whether it is Mr. Goins or Chairman 
Sinclair, Chairperson Tucker, Chairman Yob, it seems to me that 
everyone who has testified here has a very legitimate complaint 
about the Federal Government, its bureaucracy and its inability 
to meet a time line or a reasonable time line to make the 
decision, yes or no.
    My understanding is that since the regulations were 
established in 1978, 40 decisions have been made. So that is 
about, in 30 years, 40 decisions, 16 petitioners were 
acknowledged, 24 were denied. During the period that the 
Interior Department has rendered 40 decisions, of which 16 
petitioners were given sovereign status, Congress in that same 
period has recognized, restored or otherwise changed the status 
of 28 tribal groups by an act of the Congress.
    So that is where we are. We are going to hold other 
hearings on this subject. But Mr. Fleming, I must say, and I am 
not denigrating your work, because I don't know how long you 
have been there or what your role is, whether you have asked 
for additional funding and you are not getting it. But somebody 
is bleeding this process dry and the process isn't working for 
a lot of folks who are vulnerable and who at some point will 
deserve recognition, tribal recognition, in my judgment. And 
they are not getting it at this point. So your page four 
describes what you would like to do. I am going to ask in six 
or 8 months, Senator Murkowski and I will ask you back and I 
want to find out what you have done as opposed to what you are 
thinking of doing.
    Mr. Fleming. I will be here.
    The Chairman. You will. We will ask you.
    Mr. Fleming. Hopefully.
    The Chairman. All right. This is important business, and 
let me thank all four of you for testifying. We are trying to 
think through this, Senator Murkowski and I and other members 
of the Committee. And we consider this something that is a 
serious responsibility of the Federal Government, a Federal 
responsibility to those that believe they have the 
documentation to establish their historical recognition as a 
tribe or their historical circumstances that would give them 
tribal status. So we appreciate very much your being here 
today.
    Let me ask Senator Murkowski to continue the chairmanship 
of this Committee, as I have to go down to the other meeting. 
We are joined, however, by Senator Burr. And Senator Murkowski, 
if you perhaps want to recognize Senator Burr for a statement.
    Senator Murkowski [presiding]. That is certainly 
appropriate at this time. Senator Burr?

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. I thank the Chairman, I thank the Vice 
Chairman. I apologize to the Committee and my colleagues, but I 
am also in a Veteran's hearing downstairs. I apologize to our 
witnesses.
    Mr. Chairman, I want to commend you on your understanding 
of the challenges we have before us, and I think you stated 
them very clearly. I am delighted to be here today. I want to 
take this opportunity to thank my colleagues, Senator Dole and 
Representative McIntyre for their unbelievable work as it 
relates specifically to the Lumbee issue. I believe it is long 
past time that the Lumbee Tribe receive the full recognition 
they deserve. I have been an advocate for Congressional 
consideration of Lumbee recognition since my tenure as a member 
of the House of Representatives representing the Fifth District 
of North Carolina.
    In fact, I testified before the House Committee on 
Resources in 2004 to facilitate a decision on Lumbee 
recognition. I felt then and still do today that the pursuit of 
Lumbee recognition, which has touched three centuries, should 
finally be resolved. I want it to be clear that the Lumbees are 
in a unique situation, as the Chairman stated. In 1956, 
Congress designated the Indians residing in Robeson County and 
adjoining counties as the Lumbee Indians of North Carolina. 
However, this act also prevented the Lumbees from ever being 
eligible for any services performed by the Federal Government 
or any benefits derived by law or on behalf of other recognized 
groups.
    When the Bureau of Indian Affairs established this process 
for formal recognition in the 1970s the Lumbees were denied 
from seeking recognition due to the 1956 Act. In 1989, the 
Department of Interior decided that the 1956 Act prevented the 
Lumbees from being considered for Federal recognition under the 
administrative process. Therefore, the limited Federal 
recognition of the Lumbees in 1956 has been as much of a 
detriment as a benefit.
    Since my testimony last year, the full Senate has still not 
given consideration to Lumbee recognition. I have not wavered 
in my advocacy for Lumbee recognition and it is my hope that 
the Senate will fulfill its commitment to achieve fairness and 
justice for the Lumbees.
    I certainly appreciate the Vice Chairman's indulgence so 
that I could get back to the Veterans hearing. I would say to 
this group, I think the Chairman stated it very simply, we have 
two choices. Not the Bureau of Indian Affairs. The Congress of 
the United States has two choices. And any group, individual 
who had fought a process since 1956 deserves some resolution to 
that process.
    I thank the Chair.
    Senator Murkowski. Thank you, Senator Burr. I appreciate 
your advocacy and that of Senator Dole's and the Congressman on 
this important issue to the Lumbees.
    We are scheduled to have a vote beginning at 10:45, but 
Congressman, I would turn to you for any questions that you 
might have prior to us recessing and Senator Dole, if you would 
like to direct any questions to the witnesses. Then we will 
take a short break so I can go vote and come back.
    Congressman, do you have anything?
    Mr. McIntyre. I have no questions at this time but thank 
you.
    Senator Murkowski. Thank you. Senator Dole?
    Senator Dole. Let me just ask Chairman Goins, the Lumbee 
Tribe, as we have all heard, has sought Federal recognition for 
more than 100 years. Why do you think the Tribe has never 
succeeded? Could you just sum that up for the record?
    Mr. Goins. Very simply put, Senator, and thank you for 
asking. Since 1890, the BIA leadership has repeatedly opposed 
our recognition because of one thing: our size.
    Senator Dole. How important do you think State recognition 
is in the Federal process? Do you think that the current BIA 
process gives enough weight to State recognition, Chairman 
Goins?
    Mr. Goins. Senator Dole, it should be very important. My 
understanding of the current process does not give much weight 
to such a relationship. I don't understand how the Federal 
Government can cast aside such a relationship, particularly in 
a case like Lumbee, when the Lumbee has enjoyed such a 
relationship for over 120 years with the State of North 
Carolina.
    Senator Dole, you know personally, you know that we have an 
active, longstanding political relationship with the State of 
North Carolina.
    Senator Dole. Thank you, Chairman Goins, and thank you.
    Senator Murkowski. Thank you, Senator Dole. We will keep on 
until we get the notification of the vote.
    I want to ask Chairmen Sinclair, Tucker and Yob, the 
stories that you have conveyed here today in terms of the many 
years of basically trying to do what you have been asked by the 
Federal Government, by the Bureau, in terms of the records that 
you have had to pull together, everything that you have done, 
you are now sitting here decades out with no resolution to your 
issue. And if I understand Mr. Fleming correctly, even though 
you are the lucky ones to be on the active consideration, those 
cases on the active file, you may still be decades from 
resolution.
    In your opinions, what could be done to help facilitate 
this process? And we are talking about installing new data 
bases and digitizing records. I am not convinced that that is 
going to yield you a quicker result to this. What could make 
the process move more expeditiously? Are there deadlines that 
need to be put in place? You surely have given some thought to 
this. What can be done?
    Mr. Sinclair. That is a hard question, because I am not 
completely familiar with how OFA internally operates, just from 
day to day. But I think some sort of time limit, because we 
want an answer, yes or no. Right now we have been dangling, 
basically. Well, we have been dangling for almost 200 years. 
But it has been dangled over our heads for the last 30, almost.
    That would be my best----
    Senator Murkowski. So some form of deadline. How about you, 
Chairwoman Tucker or Chairman Yob?
    Ms. Tucker. From our experiences in this process, there are 
some things that Mr. Fleming has said that I understand for new 
tribes. But what we have found is that when agencies reform, 
that this causes delays. While you are beefing it up and you 
are putting the allocated resources in there, and then the 
burden of proof is on the tribe to answer this back.
    I think that the process does need to be looked at. I think 
that there are time lines that need to be established. I think 
that there are open doors of communications that need to be 
made now between the agency and those of us who are sitting. We 
are considered ready, waiting for active consideration.
    Senator Murkowski. Do you think that communication has been 
lacking in the past? Is that what you are suggesting?
    Ms. Tucker. Yes, I do. And if I can add one thing, the 
elder stateswoman of our council, who volunteers 5 days a week 
at our tribal house, is 83 years old. And if we have to wait 
another 15 years, I mean, I love her dearly, but I am just not 
sure about that. I would really like Congress to act on the old 
ones and then let's see what can be done for the rest.
    Senator Murkowski. Chairman Yob?
    Mr. Yob. That is a really hard question. It is probably 
where I put my foot in my mouth, here, but I do appreciate what 
Mr. Fleming is doing. Because I know if this wasn't such a 
thorough process, there would be probably 2,000 people on that 
list instead of 200. I just know that whatever they ask us, we 
will do for them, and we hope that they do it in a fair manner 
back to us.
    Senator Murkowski. That is fine. And several of you have 
mentioned not only the time and energy that the delays cause, 
but the expense. Is the expense of going through this process 
prohibitive to some? I think it was you, Chairwoman Tucker, 
that indicated you are not only burying generations, but the 
expense is perhaps debilitating as well.
    Ms. Tucker. Yes, because any time you are looking at a 
process that requires anthropologists, genealogists, 
sociologists and all those other ologists, you are looking at a 
tremendous amount of money. They are not going to come and work 
for nothing. We dealt with volunteers for many, many years, 
Senator. The Administration for Native Americans, they had 
status clarification. We used that process to help solve our 
problems and at the same time, maintain our culture. Because 
that was the way that we could keep our language safe.
    But now those grants are not there. So we are in a state 
now where we are desperate, we don't know where to turn.
    Senator Murkowski. Chairman Sinclair, you wanted to add 
something?
    Mr. Sinclair. Yes, what we wanted to say was one thing. We 
had a preliminary proposed finding of recognition back in 2000. 
We had no Government entity that opposed us, no tribal entity 
that opposed us. And we also have the Supreme Court, Montana 
Supreme Court has ruled that we meet the Federal criteria as a 
tribe of this Country.
    We would like to see that used to short-circuit this 
system. We should be able to be recognized at this point, 
because of those factors.
    Senator Murkowski. So an expedited process, because of the 
factors that had been laid in your case?
    Mr. Sinclair. Right.
    Senator Murkowski. Let me ask you, Mr. Fleming, when 
Chairman Dorgan asked you what the timeframe is, and you set 
out the timeframe within the regulations at about 25 months, 
and I have to admit, when I heard 25 months I thought, well, 
that is within the realm of reason. But then when pressed 
further to appreciate that because of the backlog, that has the 
potential to add an additional 15 years, potentially, or even 
more, I have to concur with the Chairman, it is unacceptable. 
It is not right, it is not a system that is working under any 
stretch of the imagination.
    Now, you have indicated that you are going to be presenting 
some revised guidelines. What will this do to those who are 
waiting who have submitted, the seven tribes that have 
submitted their petitions and they are in that active status? 
Do they have to now conform to something new? Is this going to 
cause further delay to them?
    Mr. Fleming. No. The revised guidelines would be for those 
petitioners who are currently documenting their petitions.
    Senator Murkowski. So those that have just submitted their 
intent, is that correct, or does the other ten under active 
consideration, are they under new requirements?
    Mr. Fleming. There are no new requirements. These are 
guidelines that simply will provide technical assistance for 
those petitioners who are working on documenting their 
petitions. A good part of the work is done by the petitioner. A 
good part of the work is done by the Department.
    If the petitions are better prepared, then that will help 
ease the review. Many of the groups have been documenting their 
petitions, I will give you an example. One petitioner submitted 
their letter of an intent in 1978. They did not submit their 
documented petition until 1998. Whatever the delay was on their 
part for 20 years, we then get part of the blame for that 
delay.
    Once the petitioner submits their material, we provide a 
technical assistance review letter that points out any 
deficiencies or significant omissions, and this one particular 
group then took 5 years to respond to that letter.
    Senator Murkowski. Do you believe that it is entirely clear 
on its face as to what is expected to be submitted, or is this 
part of the problem, that perhaps the tribes are left guessing 
as to what it is that you need and require?
    Mr. Fleming. This is why we are recommending to revise the 
guidelines to allow clarity on what is expected, not only by 
what the review teams are looking for, but also what is 
required under the regulations.
    Senator Murkowski. When do you anticipate those guidelines 
will be out?
    Mr. Fleming. Very soon. It is one of the ideas that we have 
expressed that we would like to get out to the petitioners and 
the interested parties.
    Senator Murkowski. How many employees do you actually have 
within OFA?
    Mr. Fleming. We have 14 full-time employees and we have 7 
contracted individuals that help with the research and 
administrative tasks.
    Senator Murkowski. And in order to get your time line 
addressed, or your backlog addressed, how many employees do you 
think you would need to bring on?
    Mr. Fleming. We have expressed that analysis in the GAO 
report and review, and I would be happy to provide that to the 
staff.
    Senator Murkowski. Do you need to double it?
    Mr. Fleming. It depends on expectations. If you want the 
backlog to be completed by X number of years, then here are the 
resources necessary to do that.
    Senator Murkowski. Well, then let me ask you another way. 
If our regulations say that basically there is a 25 month 
process, that is an expectation that I think your petitioners 
can reasonably expect. That is what is outlined in your own set 
of regulations.
    Mr. Fleming. Correct. And I might point out that the 
regulations do allow for extensions. There are opportunities 
for the petitioner, if they need more time to develop their 
comments during the public comment period, then they may wish 
to ask for an extension. We have had one group that has asked 
for over ten extensions. And with that in mind, the current 
Administration is looking conservatively at granting extensions 
because of these concerns of delay. The extensions are in 
increments of 180 days or less. And so we want to give the 
petitioner the opportunity to enhance their petition. If they 
have a plan on how they are going to use their extension, that 
is another idea that we would like to institute, so that we 
know that extension time is being warranted and used 
effectively. Because one extension in one group may also cause 
a delay in the review of other groups, because we have the 
limited resources.
    Senator Murkowski. I appreciate what you are saying. I do 
not believe that a 15 year backlog is acceptable within your 
department or agency or any that we are dealing with. As I have 
said before, it is not fair, it is not right. We do need to 
have some better resolve to how we are going to process this 
and provide an answer, either up or down, for those that are 
seeking this recognition.
    Mr. Goins, I appreciate, too, your travel here today. It 
has been suggested by some that what you need to do is pursue, 
rather than pursue the legislative recognition that you are 
doing, is to start down the road of administrative recognition. 
My guess would be that after this hearing, this is not a road 
that you are interested in at all.
    Mr. Goins. No, ma'am.
    Senator Murkowski. I just wanted to confirm that.
    If in fact you had no other choice but to do that, and I am 
just playing devil's advocate here, do you have any idea how 
long it might take you to compile a petition to submit to the 
Office of Federal Acknowledgment?
    Mr. Goins. Senator, I have no idea. Let me go back to Mr. 
Fleming's comment about limited resources. Now, the tribes, not 
only the Lumbees, but everyone here at this table, we don't 
have a lot of money. We are out here asking the churches to 
have plate sales, love offerings, we are having to raise this 
money like this, this is a heavy burden on the tribes. So it 
costs millions of dollars to go through the process. And that 
is something I couldn't give you an answer, it depends 
basically on the funding.
    Senator Murkowski. Sure. One last question for you. You had 
mentioned in your written testimony that Congress should 
transfer the Federal acknowledgement process to another agency 
or perhaps some kind of an independent commission. Do you have 
any suggestions on where that might be, what kind of an agency, 
or what would be appropriate to consider administering the 
acknowledgement process?
    Mr. Goins. No, but the reason for that statement was this. 
When you look at the mission of the BIA itself, it is to give 
service and protect the rights of federally recognized tribes. 
Then you are turning around and asking the same BIA to qualify 
a tribe to come in that is not federally recognized. That is 
why we would just like to see this whole process just go to an 
independent commission, whatever the Congress could come up 
with, an independent commission outside of the BIA.
    Senator Murkowski. So just remove it from BIA altogether?
    Mr. Goins. Yes, ma'am.
    Senator Murkowski. Let me just check quickly and make sure 
I have had all my questions answered. I believe that I have. It 
appears that we have beat the clock to the vote, so we don't 
need to take a break. Again, I appreciate the testimony of each 
of you who has appeared before the Committee today. I 
appreciate what you do for those that you represent, those you 
serve.
    This Committee will keep working on this issue. The 
testimony I think has been very, very helpful this morning to 
allow us to better appreciate what you are dealing with on a 
daily basis as you attempt to work through the Federal 
bureaucracy to achieve that recognition.
    I concur with Chairman Dorgan that we probably need to do a 
followup with your agency, Mr. Fleming, to see how this process 
is coming, because I do think that it is clear we need to be 
doing more to achieve the very important goals that have been 
mentioned by so many here.
    So with that, we will conclude this hearing.
    [Whereupon, at 11 a.m., the Committee was adjourned.]


                            A P P E N D I X

   Prepared Statement of Hon. Mel Martinez, U.S. Senator from Florida
    Chairman Dorgan and Vice Chairman Murkowski:

    I want to thank you for holding this hearing to examine the federal 
tribal recognition process and for inviting Chairwoman Ann Tucker of 
the Muscogee Nation of Florida to testify before you today.
    As Chairwoman Tucker will outline very eloquently, the Muscogee 
Nation has been struggling for nearly 30 years to gain federal 
recognition through the bureaucratic and broken federal recognition 
process at the Bureau of Indian Affairs (BIA). She has been a tireless 
advocate for the Muscogee Nation and for her people to prove that they 
actually exist, and are eligible for important programs at the BIA.
    The Muscogee Nation is headquartered in Bruce, Florida, which is a 
small community situated in the northwestern part of the state. The 
Tribe has a 7-acre land base in Bruce and has 13 acres of 4,000 year 
old shell mounds that it keeps in protective trust for the benefit of 
all people in their community to enjoy.
    The Muscogee Nation are descendents of Creek Indians native to 
Florida that were relocated by the U.S. Government during the Trail of 
Tears. The Treaty of Washington and Treaty of Fort Gibson (1832-1833) 
required that the Creek Nation relocate from Florida to land west of 
the Mississippi River. Not all of the Creek agreed to leave and 
resisted being removed by President Jackson. These remaining Creek 
later became named the Muscogee Nation of Florida. In 1852, the General 
Assembly of Florida enacted legislation that made it illegal for any 
Native American to remain in Florida. The Tribe was also subjected to 
the racial segregation of Jim Crow laws in Florida.
    Even though the Tribe was impacted by 1852 laws, the Muscogee 
Nation of Florida continued to function. The Tribe maintained its 
traditional form of leadership, subsistence type of living, and shared 
economic practices. During the early 20th century, the Tribe saw an 
increase in its membership, and the BIA made an announcement in 1947 of 
a Land Claim Settlement impacting the historic Creek Nation. The people 
of the Muscogee Nation of Florida were parties to this litigation, and 
it was determined in 1957 that they were eligible to share in the 
settlement.
    Unlike the controversies surrounding others involved in the 
recognition process, the Muscogee Nation is not interested in acquiring 
gaming rights. They have not petitioned our Governor or state 
legislature in pursuit of these rights, or sought to acquire additional 
lands to expand gaming operations. Instead, the Tribe is seeking an 
acknowledgement of the simple fact that they are indeed a tribe. The 
Tribe has been recognized by the State of Florida and has the support 
of local leaders, business, and hundreds of individuals who have signed 
petitions in support of recognition.
    Under the leadership of the Senate Indian Affairs Committee, the 
myriad of problems with the Federal recognition process have been 
highlighted and exposed. Chairwoman Tucker's testimony today will shed 
further light on the past inadequacies of this process. I look forward 
to working with the Committee and assisting in their efforts to bring a 
more open and transparent tribal recognition procedure at BIA.
                                 ______
                                 
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Thank you, Mr. Chairman. I commend the Committee for holding this 
important hearing on the process of Federal recognition of Indian 
tribes.
    Although the Federal acknowledgment process was set up with the 
intent of providing tribes with a fair and unbiased track for obtaining 
Federal recognition, there are some tribes that cannot go through the 
process, and there are some tribes that feel the process is too slow, 
too expensive, and too cumbersome. I agree with you, Mr. Chairman that 
this process needs to be looked at carefully and remedied where 
appropriate. However, that may take many years. Today, we will hear 
from tribes that have been waiting a long time--13 years and 29 years--
just to go through the Federal acknowledgement process. These figures 
do not include the decades they have been waiting for Federal 
recognition prior to the establishment of the process. How much longer 
must they wait for an efficient and effective process?
    Of the four tribes we are examining today, the Lumbee's experience 
is particularly disheartening because they are ineligible to go through 
the Federal acknowledgement process. Since 1885, the Lumbee have been 
recognized by the State of North Carolina, yet their tribe is the only 
tribe in the country acknowledged as Indian by Congress but have no 
access to the Bureau of Indian Affairs recognition process because of 
an act of Congress. I think the time has come to correct this wrong 
that was done so many years ago and extend Federal recognition to the 
Lumbee Tribe. Over the years, the Congress has attempted to do so. Most 
recently, the House of Representatives passed H.R. 65, the Lumbee 
Recognition Act.
    In addition to the Lumbee's experience, today we are examining the 
plights of the Little Shell Tribe, the Muscogee of Florida, and the 
Grand River tribe. All three of these tribes are at different stages in 
the federal acknowledgment process. Little Shell and Muscogee submitted 
their petitions when this process was first developed back in 1978. 
Grand River has been going through this process for the past 13 years. 
Although, I understand that there many requirements that the tribes 
must meet, there must be a more efficient way for tribes to gain 
federal recognition.
    According to the Department of Interior, since 1978, there have 
been 314 groups who have stated their intent to seek acknowledgment 
through the administrative process. Of this number only 82 groups have 
submitted completed petitions. Of the 82 completed petitions, the 
Department of Interior has resolved 41 cases. Also, it should be noted 
that of the 82 completed petitions, 19 cases were resolved by an act of 
Congress or through other means. Currently the Department has 10 
petitions under active consideration and 9 petitions are awaiting 
active consideration.
    The four tribes who are represented here today all have unique 
circumstances, as well as experience with this process, and I hope that 
they will have adequate time to provide their thoughts and insights on 
this issue.
    I look forward to working with my colleagues on the Committee to 
ensure that the legislation for these tribes receive fair consideration 
before the U.S. Senate.
                                 ______
                                 
Prepared Statement of Curtis Chambers, Tribal Chairman, Burt Lake Band 
                     of Ottawa and Chippewa Indians

    My name is Curtis Chambers. I am the Tribal Chairman for the Burt 
Lake Band of Ottawa and Chippewa Indians. This prepared statement is 
submitted for your last hearing on the Federal Recognition Process, it 
is my hope that this will give you some insight on how this entire 
process has completely failed my people. My statement will be strong, 
and I am sorry about that, but my level of frustration is over the top 
and someone has got to start telling the truth about what is really 
going on here.
    The historical facts and background) including our two ratified 
treaties and the approximately 40,000 pages of pictures, documents and 
cd's etc. . .submitted by my Tribe to the BIA are irrefutable proof 
that Burt Lake was and is a treaty tribe which still exists. The other 
federally recognized tribes in Michigan agree with this position. Now 
the last that I understood it, the BIA does not have the authority to 
terminate a treaty tribe unless Congress gives it that power. I may not 
have the same education that some of the BIA staff have, but I do 
understand separation of powers. What Congress passes the BIA cannot 
undo on its own. If it can and we are not going to get our Federal 
benefits, can you please help us get our land back from the U.S. 
because we need to sell it to someone who will actually pay for it!
    As a matter of fact, the OFA does not disagree that the Burt Lake 
Band signed two treaties with the United States, that those treaties 
were ratified by the Congress, and that the U.S. represented the Burt 
Lake Band in Federal court as our ``guardian and trustee'' well after 
1900. They also do not disagree that our members comprised a distinct 
Indian community until 1989. That's right 1989!!! Yet, according to the 
BIA we no longer exist. Now if that does not sound ridiculous, my 
members and I do not know what does.
    According to the BIA, we ``ceased to exist as a distinct Indian 
community'' in 1989 simply because some of our members, many of who 
were quite sick, became convinced that the U.S. was never going to hear 
our case, so they took the advice of our local BIA Agents and signed up 
for health care and education services with the Little Traverse Bay 
Band. Little Traverse opened its doors to help our people, until our 
recognition status could be resolved by the Congress, but when you are 
dealing with the BIA, no good deed goes unpunished. The problem, 
according to the BIA is that even though these people signed up with 
Little Traverse, they never left Burt Lake. So because, on paper, we 
have members in two tribes and that violates some Federal regulation, 
we have to be terminated. It does not matter that our community is 
still intact, that the majority of our people never signed up for those 
Little Traverse services, or that Little Traverse itself continues to 
argue that Burt Lake is still a separate community, according to the 
BIA all that counts is what is on paper and what's in their 
regulations. After all, they are lawyers, and we are just dumb 
Indians!!!!
    The mere fact that some of our people took these steps only after 
being assured by the BIA Agency staff that they could return to Burt 
Lake's rolls as soon as it was reaffirmed did not matter either, 
because OFA is separate from the rest of the BIA and should not be 
bound by the fact that these other BIA people gave ``bad advise.'' So 
in short, OFA cares more about what is in its regulations than it does 
about what really happened. I guess Indians just do not think like 
that!
    The whole idea that Burt Lake ceased to exist as a separate tribe 
is ridiculous to us, because we know how our people see themselves and 
who we are seen by other Indians in the state. Besides, we see these 
people who the BIA says have ``left'' our community every day and I 
personally have seen almost all of them at Burt Lake functions in just 
the last month. No other Little Traverse people were there, just those 
who ``left Burt Lake'' and those who stayed! But the BIA spent a whole 
4 days up here with clipboards and tape recorders and that was enough 
time for them to see'' the true picture.'' Me, I just live here.
    Now it does not matter that the other federally recognized tribes 
in Michigan, the University of Michigan whose professors worked with 
us, and which has studied Michigan Indians since the University was 
formed, the local governments who deal with our tribe on a regular 
basis, the Catholic Church which has had a Burt Lake Indian Mission 
Church on our land at Burt Lake from the early 1800 through today, the 
State of Michigan, and our State Representatives and Congressional 
delegation who all have met with our community regularly for over 50 
years all disagree with the BIA, because the BIA spent 4 days here with 
clipboards and tape recorders and knows better than all of them. After 
all, it interviewed 10 people!!1!!
    This is what is wrong with this process; To this day, the BIA has 
not been able to point to one legal document terminating our tribe, so 
when NARF and our other lawyers demanded that they give us the services 
that we are legally entitled to under our treaties, the BIA went into a 
panic and spent four whole days interviewing ten to twelve people, and 
another 8 months comparing us to their own picture of what a federally 
recognized tribe should look like and declared us extinct. That was 
some 4 days--these people must be brilliant.
    Let's put aside for a minute our two signed and ratified Treaties, 
the Federal court case that the United States litigated as the 
``guardian and trustee'' of our ``federally recognized tribe'', the 
opinions of the federally recognized tribes in Michigan, the opinion of 
the folks at the University of Michigan, the opinion of the State of 
Michigan, and all the documentation we presented, and look at the 
process that has become so complex and convoluted that nobody is 
satisfied with it. Now I am the first to admit that I am just a stump 
jumping halfbreed from northern Michigan, but it seems to me that the 
process is exactly backward. Instead of figuring out how to live up 
their treaty obligation as the Supreme Court and the Constitution say 
they are supposed to, this OFA group just ignores the Treaty, ignores 
the Constitution and sets out to prove why a treaty tribe who they 
mistakenly left off their list has ceased to exist.
    The list they use to do that is a good one too--less than 60 
percent of our people voted in the last election, our Tribal Council 
meetings do not draw more than 25 percent of our people, even though 
these are Council meeting not public meetings, less than 50 percent of 
our people live on our tribal land (even though we lost virtually all 
of our reservation land to taxes so there is no place for them to 
live), and oh yes, some of our people were members of inter-tribal 
organizations and some married into other tribes. Under these tests, 
they could terminate the Navajo, the Blackfeet and every Sioux Tribe 
tomorrow and use our decision as precedent. So who knows, maybe the BIA 
will go after them next.
    Don't think they couldn't do it either--because in many cases our 
numbers are as good as theirs--we have two ratified treaties, the 
majority of our people lived next door to one another until WWII, we 
had 80 percent Indian to Indian marriage at the end of WWII and 50 
percent of our people were still speaking the language at the end of 
WWII, but that does not count to the BIA.
    I know a lot of federally recognized tribal leaders and a lot about 
how federally recognized tribes actually function because these are my 
cousins, and I thank God that they have never had to face the BIA's 
tests, because I know that they would end up in the same boat we are 
in. Standing Rock, Rosebud, Pine Ridge and Three Affiliated for example 
would not qualify because their members come from more than one band--
thus they are not technically ``from a single Tribe or tribes who 
combined to form a single entity.'' Under the BIA's test, they are 
merely a group of people from different historic Bands who got forced 
to move to a specific location--so in that regard they are worse off 
than we are. Less than 60 percent of Oglala's members voted in the last 
tribal election according to Indianz.com, and the tribal council 
meetings for every one of these tribes generally don't draw more than 
40 non council members, which is less than 1 percent of their 
population. So. that is far below our numbers as well. Also, a lot of 
Oglala Sioux are married to Rosebud members, and Standing Rock members 
are married into other Sioux Bands so that too is a negative as well. 
Finally less than 50 percent of the Oglala Sioux actually live on the 
reservation. The fact that many live in Rapid City and go back and 
forth every week does not count in the OFA process. So God help them if 
they ever had to face the BIA's regulations.
    Are we Indians--well yes. The BIA own genealogists just recently 
awarded most of our Tribal members judgment fund monies of over 
$12,000.00 each as \1/4\ blood Indians who descend from the two 
ratified treaties that we gave the BIA, so they do not dispute that we 
are Indians, just not the Indians they want us to be. They also do not 
dispute that our entire council is descended from historic treaty 
signers, we just do not fit into the pigeon hole they want us to. The 
OFA's assertion that we somehow ceased being a Tribe because: we did 
not continue using services that no one offered to us in the first 
place; some of our people had to leave the area in order to get jobs to 
feed their families and only made it home once a month, and that our 
people should be punished for doing what they had to do to get the 
health care that they needed and that the U.S. denied to us illegally 
is patently absurd and pretty damn cruel too, That would be like the 
Catholic Church closing a church and then saying wow--no church--I 
guess that means that there are no more, Catholics living there.
    Incidentally, the Burt Lake Indian Mission Catholic Church we 
rebuilt on our tribal lands after our Burn-out in 1900 is still is use 
today, so I guess they must be violating their obligation by keeping it 
available to those of us who are ``no longer Burt Lake Indians.'' Maybe 
that's why the Catholic Church supports our reaffirmation so strongly.
    Sir, the entire process started off in an adversarial situation. 
First we had to wait 24 years for someone to tell us when and how they 
had incorrectly concluded that we were terminated and then instead of 
doing that they sent us to OFA, Then, we finally got a chance to inform 
the BIA who we were and what our intentions were and from that moment 
on the Bureau started trying to prove that we were liars. I don't know, 
maybe they were afraid that we would sue them or something for the 
services that we had been illegally denied. Our treaty meant nothing 
because after all, it was signed and ratified ``over 100 years ago.'' 
The fact that the majority of our members traced directly back to the 
signers of that treaty meant nothing because ``maybe they didn't want 
to be Indians anymore?'' Can't prove that they don't have a treaty, so 
you better prove that they decided to terminate themselves!!! A treaty 
tribe not on their list of federally recognized tribes gets to wait, 
get called liars and then try to find the money to fight back. That Sir 
is how the OFA process really works, in just three sentences. And if 
your like us, living in an area where gaming is never going to make a 
lot of money, good luck finding the money that you need to fight back.
    The BIA hires lawyers, historians, genealogist and staff to prove 
what bad liars we are. They have their own idea of what a tribe should 
look like, and the fact that their picture conflicts with what every 
federally recognized tribe in the state looks like does not matter. 
They have the formula because they are anthropologists. We on the other 
hand are just Indians. We are then forced to hire lawyers, historians, 
genealogists, and staff to challenge their arguments. We are also 
forced to give the BIA every single thing that they ask for no matter 
how much it costs to collect, because the BIA decides whether our 
people get the medicine they need for their diabetes, cancer and other 
problems or whether they die at home without it. That is what happened 
to one of our most beloved elders Bernie Parkey just last month. He 
died at home, because he could not afford a hospital bed and IHS said 
he was not Indian enough! Imagine that, a treaty Indian of almost full 
blood, living on his original land, dying without medical attention 
because he is not the right kind of Indian!! So when we complain and 
demand that they prove that they terminated us, the Bureau hires more 
of the same along with a solicitor for each. ``Do you see a pattern 
here?'' The Tribes do not have much money, so they are forced to find 
investors and the process starts all over again. All because living up 
to the terms of our treaty might cost them some money to pay for the 
land that those treaties took away.
    It seem to me that things would be much simpler if the Bureau would 
use its resources to help live up to the Treaties that we signed 
instead of trying to get rid of treaty Indians! It has been my 
experience that it is much easier to prove a positive than a negative. 
But, if we disagree with the ruling that the BIA hands down, the burden 
of proof falls on us and that is dam hard to deal with when you are up 
against Federal lawyers paid for by our own tax dollars.
    Sir, the bottom line is that we are treaty Indians still living 
together as a community. Our Tribe still honors the agreements and 
commitments made by our ancestors and your predecessors in those 
treaties. I do not believe the Bureau does. Will you?
                                 ______
                                 
 Prepared Statement of Michael Cook, Executive Director, United South 
                        and Eastern Tribes, Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Prepared Statement of Michael F. Easley, Governor, State of North 
                                Carolina
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of James Wright, Tribal Chief, Ma-Chis Lower Creek 
                        Indian Tribe of Alabama

    Chairman Dorgan, Vice Chairman Murkowski, and honorable members of 
the Senate Committee on Indian Affairs, I thank you for the opportunity 
to present this testimony to the Committee. As Tribal Chief of the Ma-
Chis Lower Creek Indian Tribe of Alabama my name is James Wright and it 
is an honor to submit our information to this Committee for the record.
    This Tribe is recognized at many different levels of government but 
we have been unable to get the Federal Recognition from BIA because of 
the process that now is in place. We recommend that the process be 
changed to a realistic format that will allow an affordable process for 
Native American Tribes.
    The Ma-Chis Tribe was denied Federal Recognition with the present 
format that is in place because a number of reasons that we as Native 
Americans were unable to comply with, such as: we had to deny who we 
were to government officials in order to stay in our homeland in the 
southeastern part of the present day United States of America so we 
were not killed or removed in the Indian Removal Act of the 1830's. By 
doing this act of survival, we can not show the continuous 
``government-to-government'' relations that is in the present process.
    Without going into a long explanation of our unique circumstances, 
we will offer a little background information.
    The Ma-Chis Tribe is made up of Native Americans who are 
descendants of the Creek Confederacy and Native Americans who have kept 
the native ways close to their hearts and remain today in our homeland. 
We are party to signatures to several treaties with the United States 
between 1790 and 1836, which led to many of our ancestors being forced 
in a march west.
    Our tribal members who stayed in our homeland retreated into the 
forested lands, swamps, caves, and lived along the following streams: 
Pea River, Conecuh River, Yellow River, Coosa River, Tallapoosa River, 
Little Tallapoosa River, Alabama River, Choctawhatchee River, Little 
Choctawhatchee River, White Water Creek, Big Judy Creek, Little Judy 
Creek and others located in our homeland. We maintained a close knit 
community and at times the closeness was only known by tribal members. 
We are proud to be united as a Native American Tribe that is anti-
gaming and faith based. Our tribal owned businesses and tribal church 
is spreading its' work base and faith base in and ever-growing World 
Wide recognition.
    We note that it has been brought to the attention of this 
committee, a number of flaws in the existing process of Federal 
Recognition and would like to work with you in the process to rework 
the process for Federal Recognition of Native American Tribes.
    When we become BIA Recognized, it will allow us to overcome some 
present day problems we have as Native Americans in Alabama such as 
allowing us to put Native American on the Drivers License in the State 
of Alabama, and allowing us to overcome a number of educational 
problems that our tribal members go through with discrimination.
    We still face the fact today of not being BIA Recognized with such 
issues as getting the HUBZone Certification. As an example, we have 
been denied this certification for our tribal business because we ``do 
not exist'', but the fact is we live in a HUBZone and are United States 
Citizens but because BIA does not have us listed on their (BIA List), 
we can not get the certification, and that denies our tribal 8(a) SDB 
Company the opportunity to bid on HUBZone projects.
    In conclusion, you can see there are many problems that we have 
with the present process, and I urge you to change the process for the 
better.
                                 ______
                                 
Prepared Statement of Hon. Anthony Rivera, Jr., Chairman, Juaneno Band 
                 of Mission Indians, Acjachemen Nation

    Chairman Dorgan, Vice Chairman Murkowski, on behalf of the Juaneno 
Band Of Mission Indians, Acjachemen Nation of Orange County, CA, I 
would like to thank you for holding today's ``Hearing on the Process of 
Federal Recognition of Indian Tribes''. For the reasons I set out 
below, today's exercise of the Committee's oversight responsibilities 
over the Federal recognition process is long overdue and needs to be 
continued in order to reform a badly broken administrative process.
    For the record, my name is Anthony Rivera, Jr. and I am the 
Chairman of the Juaneno Band of Mission Indians, Acjachemen Nation 
(``the Nation'') located in San Juan Capistrano, Orange County, 
California.
    First western contact with the Nation came with the arrival of 
Spanish missionaries in 1769 and our history is not unlike the many 
other California tribes that suffered under the yoke of Spanish 
oppression yet persevered and fought to preserve our culture and 
political integrity. It is a testament to those that went before me 
that I am here before you today, on behalf of the Nation and still 
fighting for formal acknowledgment by the U.S. Government. Today I am 
indeed standing on the shoulders of giants who never gave up hope that 
the Nation would assume its rightful position among the family of 
federally recognized Indian tribes in the U.S.
    Our contemporary fight for recognition really began in 1919, when 
the Nation joined the Mission Indian Federation to protest the abuses 
to Indian people carried out by the Federal Bureau of Indian Affairs--
the same Bureau of Indian Affairs that literally has the power of life 
or death over the Nation's petition for acknowledgement. Around the 
same time the Nation submitted a signed petition to the Department of 
Interior requesting Federal acknowledgement and restoration of tribal 
lands.
    The Nation has been in the queue of the administrative federal 
recognition process since 1982, when a formal letter of intent was 
filed with what was then called the Branch of Acknowledgment and 
Research, and currently bears the name ``Office of Federal 
Acknowledgement'' (``OFA''). The letter and the subsequent filing of 
the application and related documents were done pursuant to the 
regulations found at 25 CFR Part 83, ``Procedures for Establishing that 
an American Indian Group Exists as an Indian Tribe.'' These regulations 
were first promulgated in 1978 and continue to govern the review of 
recognition petitions.
    The recognition by the U.S. of a sovereign Indian tribal entity is 
an occasion of some solemnity because with it comes all the privileges 
and immunities of Indian tribal status under Federal law. The event 
also marks the establishment of a unique legal, political, and 
government-to-government relationship between two sovereigns: the 
United States and the Indian tribe.
    In theory, the OFA is guided by and operates according to 
regulations intended to establish a uniform administrative process for 
Indian groups seeking formal recognition.
    Petitioners are required to satisfy seven strict criteria before 
recognition will be accorded. The recognition process, like all 
administrative processes, should be rigorous, transparent, fairly 
administered in a timely fashion, and include procedural safeguards and 
certainty. The process, and those that administer the process, should 
instill in petitioners, interested parties, and the Congress a high 
level of confidence that petitions will be reviewed in timely fashion 
and decisions will be made on the merits of the application--without 
passion or prejudice.
    In America we demand of our officials and decisionmakers 
transparent decisions made in a timely fashion not only because huge--
and sometimes unsustainable and prohibitive--economic costs are borne 
by petitioners due to the extremely long administrative process but out 
of our collective belief in fundamental fairness and decency.
    The Nation first filed its letter of intent in August 1982 and has 
been extremely patient with the administrative process for over 25 
years. We have worked diligently to gain national, state, and local 
support for our petition. For example, the California State Assembly 
issued a Resolution of support for our Federal recognition in 1993; the 
National Congress of American Indians, on behalf of the General 
Assembly, unanimously passed a Resolution in support of our Federal 
recognition petition in the fall of 2005; and the Southern California 
Tribal Chairman's Association has also endorsed a Resolution of full 
endorsement for our recognition efforts. On the local level, in 2006 
the Orange County of Supervisors passed a County Resolution supporting 
the Tribe's ancestral lands and Federal recognition; the cities of San 
Juan Capistrano and San Clemente have also endorsed our bid for 
recognition. The ``Jewel of all California Missions''--the Mission San 
Juan Capistrano--and the Orange County Archdiocese have similarly 
submitted letters of support as well.
    Our diligence in garnering support has been matched by our work at 
presenting a solid and comprehensive application for recognition. Since 
1982, the Nation has been not only patient with the OFA but also 
cooperative with OFA's demands for additional information; requests 
that I might add did not significantly add to the weight or content of 
the petition.
    In September 2005, the Nation's petition finally reached ``Active 
Status'' within the OFA due to the Federal court filing in the Mashpee 
Wampanoag vs. Norton case. Since then, the OFA has not adhered to the 
decisionmaking schedule it agreed to and instead has granted no fewer 
than five extensions of time within which to issue a ``Proposed 
Finding.'' The stated rationales behind OFA's need for extensions have 
been various, vague, and unjustified according to our tribal 
government. For example, the OFA has alternatively indicated that:

        1. The ``Department needs more time in order to finalize its 
        analysis and legal review of the two proposed findings'';

        2. The ``OFA is working on its recommendations for the proposed 
        finding but needs additional time to complete its 
        recommendations'';

        3. The ``Department needs additional time in order to finalize 
        its analysis and legal review of the two findings'';

        4. The ``Department needs the full 180-day extension of time in 
        order to finalize its analysis and legal review of the two 
        findings''; and

        5. The ``OFA has requested and received an extension of the 
        deadline for completing the recommended proposed findings.''

    In extending the deadline for a Proposed Finding, the OFA has 
repeatedly relied on an interpretation of 25 CFR 83.10(h) that defies 
logic and the plain meaning of the regulation. The regulation states:

        ``Within 1 year after notifying the petitioner that active 
        consideration of the documented petition has begun the 
        Assistant Secretary [for Indian Affairs] shall publish proposed 
        findings in the Federal Register. The Assistant Secretary has 
        the discretion to extend that period up to an additional 180 
        days.''

    The OFA's interpretation of the phrase ``up to an additional 180 
days'' is that such extensions are ``limited to increments of not 
longer than 180 days, but allow for more than one extension.'' This 
interpretation strains credulity, logic, and the plain meaning of the 
regulation.
    On a more substantive matter, the Nation has been informed that the 
OFA is combining the membership list of the Nation with a variety of 
other entities, including petitioners outside of the tribe and other 
unrelated entities without providing us, the Petitioner, with ample 
justification or adequate reasoning for this action. This unorthodox--
and ultimately destructive--effort is unfounded and we question the 
reasoning and appropriateness of such an activity.
    As the congressional body which undertook the investigation of Jack 
Abramoff and his associates, this Committee knows that the Abramoff 
Affair raised an important question about good government which is 
especially relevant to the recognition process: What protections are 
there in the law or in the political arena for legitimate tribal 
petitioners, often of modest means, facing intense, well-heeled 
lobbying by private interests?
    It is sad that in our time there are Indian tribes actively working 
against the aspirations and needs of their sister tribes when it comes 
to efforts to acquire land, to develop economically, or--in our case--
whether or not we will be accorded recognition. These actions are 
disgraceful.
    Mr. Chairman, Jack Abramoff may be on the sidelines but 
``Abramoffism'' is alive and well in 2007. If the tactics by OFA in 
delaying the Nation's Proposed Finding were not enough, economic 
interests including, sadly, already-recognized Indian tribes and 
privately held card rooms are taking advantage of the OFA's elongation 
of the administrative process to lobby Members of Congress and others 
in an effort to have the Nation's petition delayed or denied. The last 
time I checked Mr. Chairman, ``market share'' was not a criteria 
included in the regulations found at 25 CFR. I am profoundly and 
personally disappointed to have learned about these efforts but those 
responsible should know that in the end they will fail.
    Today the Committee is asking the question as to why Indian groups 
see the value in pursuing Federal legislation in lieu of the OFA 
administrative process. With all respect, I would ask a slightly 
different question: how can Congress countenance a situation such as 
ours and then with a straight face suggest that Indian groups pursue 
the administrative route? The Nation has been nothing but diligent and 
cooperative and these efforts and our reasonableness have been met with 
endless delay and dilatory tactics by the OFA, political interference 
by Members of Congress, extant Indian tribes, and corporate interests, 
and no end in sight to our battle for justice.
    I will close with this thought Mr. Chairman. This Committee has 
done the required hard work over the years to protect and enforce the 
rights and prerogatives of Indian nations. I urge you to continue this 
good work and find ways to ensure that the Federal recognition process 
is transparent, free from outside and undue political influence, and 
gives this committee and Congress sufficient confidence so that 
pursuing a legislative remedy is left to those groups which, for one 
reason or another, are not eligible to pursue the administrative 
process. Due process, let alone fundamental fairness and traditional 
notions of decency, require no less.
    I thank you for your commitment to Indian country and the important 
work that you do and I look forward to working with you and your staff 
on improving the federal recognition process.

Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
  Prepared Statement of Monroe Skinaway, Chairman, Sandy Lake Band of 
                                 Ojibwe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
